NAVIGATING RISK
  A FOCUS ON CYBER SECURITY

                        TVA OIG Semiannual Report   1
    TVA Locations
                                                                                                                                                                                                                                                                                                                                                      W .   V .

                                                                I     L         .
                                                            o       R i
                                                       i                v
                                                                            e
                                                                                    r
                                                                                                                                                                                          Lovers Lane                  K E       N T         U C K Y
                                                                                                                                                                                          Soccer Complex




                                                   h
                                                                                                                                                                       Paradise




                                                  O
                                                                                                                                                                       Fossil Plant
                                                              Shawnee
                                                            Fossil Plant                                                                                                                                                                                                                                              V     I R G           I N I A
                                                                                                                   Kentucky
    M   I S S O                 U        R    I                      Marshall                                      Dam & Lock                                                                                                                                                                                                                    Clear Creek Dam
                                                           Combustion Turbine                                                                                                                                                                                                                                     Duffield Primary School             Beaver Creek Dam
                                     r




                                                                                                                                                                                                                                                                                                                     Ft. Patrick Henry Dam South
                                 e




                                                                                                                                                                                                                                                                                                                                            Holston Dam
                                                                                                                                                                                                                                                                                                                                   Boone Dam
                               i v




                                                                                                                                   C                                                                                                                                    Doakes                                                            Wilbur Dam
                                                                                                                                       u                                                                                                                             Creek Dam                      John Sevier
                                                                                                                                           m                                                                                                                                                 Fossil Plant & Dam
                          R




                                                                                                                         Cumberland                                                                                                                                                                                                          Watauga
                                                                                                                         Fossil Plant
   A R K .                                                            Gleason                                                                                           Adventure               Gallatin Fossil Plant                                                                                                                        Dam




                                                                                                                                               b
                                                                      Combustion Turbine                                                                           Science Center               &Combustion Turbine                         Morgan County           Buffalo




                                                                                                                                               e
                                                                                                                                                   r
                                                                                                                                                                                                                                        Vocational Technical                       Norris Dam
                         p i




                                                                                                                                                       l                                                                                                           Mountain                        Cherokee
                                                                                                                                                           a                                                                                         School                                                           Nolichucky
                                                                                                                                                               n                                                                                                                                   Dam
                                                                                                                                                                   d                                                                                                         Bull Run                                 Dam
                                                                                                                                                                        R                                                                                                    Fossil       Ijams
                     i p




                                                                                                                                Johnsonville                                i v                                        American Museum of Science and Energy                              Nature              Cocke County
                                                                                                                                                                                                                                                                             Plant
                                                                                                                                Fossil Plant &                                  e r                                                                                                       Center Douglas
                                                                                                                                                                                                                                                                                                   Dam        High School
                                                                                                                                Combustion Turbine                                                                                                                       Melton
                    s




                                                                                                                                                                                                                                         Kingston Fossil Plant           Hill Dam
                                                                                                                                                                                                                                                                         & Lock
                 s




                                                            Cedar                                                                                                                                                                                                            Ft. Loudoun Dam & Lock
                                                 T          Dam E               N                                                                              N                      E                    S                   S                   E                E
                i




                                                   Pin Oak Dam                                                                                                                                                                                                              Tellico                                       N O R T H
             s




                                                                      Redbud Dam                                                                                                                                      Great Falls Dam                                       Dam
                                                  Beech Dam                                                                                                                                                                                                                                 Dollywood                  C A R O L I N A
            s




                       Lagoon                                         Dogwood Dam                                                                                                                                                     Watts Bar            Watts Bar
                                                                                                                                                                                                                                                           Dam & Lock
        i




        M                Creek                      Pine Dam     Lost Creek Dam                                                                                                                                                    Nuclear Plant
                    Combustion                          Sycamore Dam                                                                                                                                                                                                                     Fontana Dam




                                                                                                                                                                                                                                                       r
                        Turbine Brownsville




                                                                                                                                                                                                                                                       e
                                                                                                                                                                                           Normandy Dam
                                Combustion Turbine




                                                                                                                                                                                                                                                   v
                                                                                                                                                                                                                                                 i
             BRIDGES Center                                                                                                                                                                                                                                      Apalachia




                                                                                                                                                                                                                                               R
                                                                                                                                                                                                               Sequoyah Nuclear Plant                            Dam
                                                                                                                                                                                Tims Ford Dam                                                      Ocoee #1 Dam          Hiwassee Dam
                Allen Fossil Plant,                                                                                                                                                                       Chickamauga Dam & Lock                                               Chatuge Dam
                Combustion Turbines, & Methane Facility                                                                                                                                                                                                      Ocoee #2 Dam
                                                                                                                    Pickwick Landing Dam & Lock                                                 Nickajack Dam & Lock
                                                                                                                                                                                                                                                                 Ocoee #3 Dam Nottely Dam
                                                                                     Florence Water                                                                                                                             Raccoon Finley Stadium                                                                       S O U T H
                 Southaven                                                                                                                                                                      Widows Creek                    Mountain
                                                       Magnolia                   Treatment Facility                                                                                              Fossil Plant                  Pumped                                  Blue Ridge Dam
                 Combined-Cycle
                 Plant                                 Combined-Cycle                                                                              Wheeler Dam
                                                                                                                                                   & Lock                                                                       Storage                                                                                   C A R O L I N A
                                                                                                                                                                                                  Bellefonte




                                                                                                                                                                                                                           e
                                                       Plant    Colbert Fossil Plant &                                                                     Browns Ferry                                                         Plant
                                                                                                                                                                                               Nuclear Plant




                                                                                                                                                                                                                          e
                                                                  CombustionTurbine                                                            Wilson      Nuclear Plant
                                                                                                                                                Dam




                                                                                                                                                                                                                       s
                                                                                                                                                                                               (UNDER CONSTRUCTION)
                                                                                                                                               & Lock




                                                                                                                                                                                                                      s
                                                                                                                                                                                                                 e
                                University of Mississippi                                                                 Cedar Creek Dam
                                                                                                             e
                                Intramural Sports Complex                                                                                                                     Guntersville




                                                                                                                                                                                                               n
                                                                                                be




                                                                                                                           Little Bear Creek Dam                              Dam & Lock




                                                                                                                                                                                                           n
                                                                                        e e - To m b i g




                                                                                                                       Bear Creek Dam


                                                                                                                                                                                                        e
                                                                                                                                                                                              Albertville
                                                                                                           erw y




                                                                                                                                                                                                     T
                                                                                                                                                                                                                                                                    G     E   O R G           I A
                                                                                                              a




                                                                                                                                                                                              Diesel Generator
                                                                                                                        Upper Bear Creek Dam
                                                                                                             Wat
                                                                                            Te n n e s s




         M       I S S               I   S        S    I        P     P         I

                                                                                                                                                                                                                                                                                                                      LEGEND
                                                                 Caledonia                                                                             A       L       A    B     A M A                                                                                               State Line                                   TVA Combined-Cycle Plant
                                                            Combined-Cycle
                                                                     Plant                                                                                                                                                                                                            Water                                        TVA Combustion Turbine Plant

                                                                                                                                                                                                                                                                                      Power Service Area                           TVA Diesel Generator

                                                                                                                                                                                                                                                                                      TVA Watershed                                TVA Pumped-Storage Plant
                                                  Mississippi
                                                        State                                                                                                                                                                                                                                                                      TVA Customer Service Office
                                                   University                                                                                                                                                                                                                         TVA Hydroelectric Dam
                                                                                                                                                                                                                                                                                      TVA Non-Power Dam                            TVA Economic Development Office
                                                                                                                                                                                                                                                                                                                                   TVA Watershed Team Office
                                                                                                                                                                                                                                                                                      TVA Coal-Fired Plant
                                                                                                                                                                                                                                                                                                                                   Green Power Switch® Solar Site
                                                                                                                                                                                                                                                                                      TVA Nuclear Plant
                                                     Kemper
                                                                                                                                                                                                                                                                                                                                   Green Power Switch® Wind Site
                                                  Combustion                                                                                                                                                                                                                          TVA Nuclear Plant
                                                     Turbine
                                                                                                                                                                                                                                                                                      Under Construction                           Green Power Switch® Methane Site
                                              Meridian
                                                Diesel
                                             Generator                                                                                                                                                                                                                                                        0        20          40        60 mi.
                                                                                                                                                                                                                                                                                                 Sept. 2011                                           N




             TVA Power Generation FY 2012
                                                                                                                                                           (in millions of kilowatt hours)

                                                 Natural gas                                                                                                                 Nonhydro
                                              and/or oil-fired                                                                                                               renewable
                                                         12%                                                                                                                 resources
                                                                                                                                                                             <1%                                                                       VV Coal - 58,584
                                                                                                                                                                                                                      Coal
                                                                                                                                                                                                                      41%
         Hydroelectric                                                                                                                                                                                                                                 VV Nuclear - 55,244
                  9%

                                                                                                                                                                                                                                                       VV Hydroelectric - 12,817

                                                                                                                                                                                                                                                       VV Natural gas and/or oil-fired - 16,650
                          Nuclear
                            38%
                                                                                                                                                                                                                                                       VV Nonhydro renewable resources - 25




Source: TVA FY 2012 Annual Report
                                 Table of Contents
                          Navigating Risk: A Focus on Cyber Security


Message from the Inspector General.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Special Feature  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Noteworthy Undertakings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Executive Overview  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Organization  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

Evaluations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

Investigations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

Legislation and Regulations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

Appendices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

Appendix 1 – Index of Reporting Requirements Under the Inspector General Act  . . . . 51

Appendix 2 – Audit and Evaluation Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . 52

Appendix 3 – Audit and Evaluation Reports Issued With Questioned and
             Unsupported Costs and Recommendations for Better Use of Funds  . . . . 54

Appendix 4 – Audit and Evaluation Reports with Corrective Actions Pending  . . . . . . . 56

Appendix 5 – Investigative Referrals and Prosecutive Results  . . . . . . . . . . . . . . . . . . 60

Appendix 6 – Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

Appendix 7 – Government Contractor Audit Findings . . . . . . . . . . . . . . . . . . . . . . . . 62

Appendix 8 – Peer Reviews of the TVA OIG  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

Glossary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66




                                                                                               TVA OIG Semiannual Report        3
     Message from the Inspector General
    I am pleased to present our report for the period April 1, 2012, through
    September 30, 2012. Once again our theme focuses on navigating
    risks faced by the Tennessee Valley Authority (TVA)—specifically, cyber
    security risk. Business leaders and government officials alike recognize
    the significant risk posed from cyber security threats that are constantly
    changing. As discussed in the feature article in this semiannual report, given
    what is at stake, it is imperative that agencies are agile enough to handle not
    only their identified historical threats, but any future threats as well.




    All of the work that we do in the           in TVA’s plans to address             In August 2012, TVA’s Chief
    Office of the Inspector General             craft labor shortages and in          Executive Officer (CEO), Tom
    (OIG) is aimed at reducing risks for        the lessons learned process           Kilgore, announced his intention
    TVA. Our accomplishments for this           after a construction project is       to retire by the end of this year
    semiannual period all reflect, in           completed.                            after seven years with TVA. On
    one way or the other, how the OIG                                                 behalf of the OIG, I extend to Mr.
    has made TVA better by reducing          VV Reviews of the Financial              Kilgore our appreciation for his
    risks. Our audit, evaluation, and           Trading Program and Direct            many contributions to TVA over the
    investigation activities resulted in        Load Control Program which            years, and we wish him well in
    almost $28 million in recoveries,           identified needed improvements        his retirement.
    fines/penalties, waste, potential           to increase the effectiveness of
    savings, questioned costs, or               the programs.                         Also, at the end of the year, two
    funds which could be put to                                                       of TVA’s Board members end their
    better use, as well as numerous          VV An evaluation of a project            service. Bishop William Graves,
    recommendations to help TVA                 management system which               who has served on the People and
    become better and recognize areas           found TVA achieved some               Performance, and Finance, Rates,
    where additional controls may               project management capability         and Portfolio committees, and
    be necessary to adequately                  but considerable opportunity for      Marilyn Brown, who has served
    manage risks. Some of the                   improvement exists.                   as chair of the Nuclear Oversight
    highlights include:                                                               Committee as well as a member of
                                             VV Investigations which resulted         the External Relations Committee,
    VV Reviews that identified areas            in one individual convicted           will rotate off as the 112th
       in which controls over (1) a             in federal court; three others        Congress ends. On behalf of the
       critical transmission asset              sentenced federally on varying        OIG, I want to extend my thanks
       needed improvement and                   charges, such as workers’             for their support of the OIG and
       (2) TVA’s privacy program                compensation fraud, false             service to TVA.
       were not effective.                      statements, and theft; and
                                                another indicted on state             President Barack Obama has
    VV Reviews that determined                  charges.                              nominated Marilyn Brown for
       improvements were needed                                                       an additional term on the Board


4     TVA OIG Semiannual Report
Holston Reservoir




along with four other individuals.     transition under new leadership     evaluations, and investigations
Currently, it appears unlikely these   with the appointment of a new       to enable TVA leadership to
individuals will be confirmed by the   CEO and, hopefully, confirmation    successfully lead TVA forward.
Senate before the end of the year.     of additional Board members. The
                                       OIG will work to promote TVA’s
Finally, during the next semiannual    mission by continuing to provide
period, TVA will once again            independent and objective audits,   Richard W. Moore
                                                                           Inspector General



                                                                                  TVA OIG Semiannual Report   5
                                NAVIGATING RISK
                                 A Focus on Cyber Security




6   TVA OIG Semiannual Report
    Special feature
Navigating Risk: A Focus on Cyber Security
In our Fall 2011 semiannual report, we examined the intersection of federal
agency and Inspector General (IG) responsibilities for assessing and dealing
with risks to the agency. In this article, we focus on the role of the IG for
one key risk area common to government, business, and individuals–cyber
security.



Like in many risk areas, the OIG                      can actually reinforce this mentality                of an agency’s enterprise risk
seeks to contribute to finding                        if it is primarily checking for                      management system. That
solutions rather than just finding                    compliance with existing laws and                    assessment must be approached
problems. Contributing to the                         regulations without encouraging                      with a particular mindset similar
solution in the cyber security arena                  the agency to do a deep dive                         to the current mindset of federal
means, among other things, that                       risk assessment. As a result, the                    law enforcement and intelligence
the IG and his or her team:                           agency may spend more time                           agencies, post 9/11, in assessing
(1) have the right mindset about                      and money than ever before,                          physical security threat levels.
how severe the actual risk is for the                 but ultimately not invest in the                     That means knowing the enemy,
agency, (2) make it safe for agency                   kind of meaningful changes that                      coordinating the gathering and
leaders to voice their assessment                     truly reduce cyber security risks.                   sharing of intelligence, boosting
of the actual risk of cyber security,                 Needless to say, this is a poor                      the appropriate skill levels and,
and (3) collaborate closely with                      option given the high stakes.                        more than anything else, nimbly
the agency to find meaningful                                                                              pivoting and making judicious use
mitigation strategies.                                In this article, we explore                          of resources to meet escalating
                                                      meaningful work for the OIG in                       dangers revealed in real time.
While individual cyber security                       the cyber security arena that adds
laws enacted over the years                           value for the agency. Hitting the                    So what exactly would be the
have heightened awareness and                         proverbial “pause button” for                        “right mindset” for both an agency
promoted accountability, the                          both the agency and the OIG to                       and the OIG to have about cyber
myriad of cyber security laws and                     consider our respective roles in                     security? The right mindset is
regulations1 can unduly burden                        actually reducing the risks of a                     simply having the same level of
federal agencies. Faced with                          cyber security disaster is critical.                 diligence required to
limited budgets and resources,                                                                             defend against a physical
                                                      The Right Mindset
the sheer magnitude of the work                                                                            terrorist attack—this is war and we
required to be minimally compliant                    Accurately assessing the severity                    are all in the same foxhole
can foster a “checklist” mentality                    of the cyber security risk for                       together. There should be
by agency employees. The OIG                          a federal agency is a function                       no stovepiping, turf wars, or simply

1
    Regulations impacting cyber security come from the U. S. Department of Homeland Security, authorized 		
    by the Federal Information Security Management Act of 2002 (FISMA); E-Government Act of 2002 (Section
    208 – Privacy); Federal Energy Regulatory Commission regulations, including those implementing the 	
    industry standards set by the North American Electric Reliability Corporation; Office of Management 	
    and Budget (OMB) Directives; National Institute of Standards and Technology regulations; and the Federal 	
    Information Processing Standard standards, to name some primary sources of regulation. Furthermore, 	
    more than 40 bills and resolutions impacting cyber security are pending before Congress (Cybersecurity: 		
    Authoritative Reports and Resources, September 22, 2012, Congressional Research Services).                   TVA OIG Semiannual Report        7
    checking the box in this particular      Making It Safe                          quality of this relationship drives
    foxhole. Perhaps the Secretary of                                                the effectiveness of OIG reviews
    Defense, Leon Panetta, said it best      The best designed risk                  and the agency’s efforts in cyber
    recently when he stated:                 management program is destined          security. If there is a tortured
                                             to fail if the culture of the           history between the OIG and
       Before September 11, 2001             agency does not make it safe for        agency employees, that must be
       the warning signs were                employees at all levels to raise        addressed before any progress can
       there. We weren’t organized.          risks. Employees and contractors        be made. This requires engaging in
       We weren’t ready. And we              pointing out vulnerabilities            some “straight talk,” which can be
       suffered terribly for that.           in current operations can be            awkward. There are certain realities
       We cannot let that happen             threatening to management.              that both sides must acknowledge.
       again. This is a pre-9/11             Confrontations can occur if there       The OIG is viewed as carrying a
       moment. The attackers are             is a difference of opinion about        “big stick,” and its public reports
       plotting. Our systems will            what the risks are and how to           can be critical of leadership and
       never be impenetrable, just           mitigate them; particularly if          performance on the part of agency
       like our physical defenses are        employees’ comments are viewed          employees. Agency employees
       not perfect. But more can be          as challenging management’s             can justifiably question whether
       done to improve them.                 assessment. Employees and               they have the option to “push
                                             contractors are key players in          back” against OIG findings and
    As with all risks, it is first the       recognizing cyber security risks as     recommendations since the OIG
    agency’s, and not the OIG’s,             well as in the effectiveness of risk    usually has the last word. Agency
    responsibility to identify and           mitigation strategies. Therefore, it    employees can respond with
    mitigate this risk. However, the         is crucial that a safe environment      frustratingly long implementations
    OIG plays an integral role in            is in place so that employees and       of OIG recommendations, creating
    helping its agency prepare its           contractors will “raise their hand”     a virtual stalemate. All this adds up
    defenses to constantly changing          if they see something that does         to the potential for a lot of wasted
    threats. In helping the agency           not look or feel right. Employees       energy in a subtle jousting match
    defend against cyber security risks,     and contractors will not settle for     that ultimately makes the agency
    the role of the OIG focuses on           just talk about management being        more vulnerable.
    accurately assessing the sufficiency     open to differing opinions. They will
    of the agency’s security program         evaluate what actually happens to       Key to this process of building
    for information technology (IT).         employees who take a chance and         the right relationship between the
    The OIG does this by identifying         challenge management’s thinking in      OIG and its agency is to be able
    unrecognized vulnerabilities. To be      a respectful way. Bringing the best     to articulate the shared mutual
    effective in assisting the agency, the   ideas to the table, no matter who       purpose of both parties. The
    OIG must project we get this is, in a    has them, is a must in the cyber        reality is that we all want to reduce
    real sense, “war” and the OIG            security arena.                         risks in cyber security. No one in
    is about confronting the enemy                                                   the agency or the OIG wants the
    and not simply checking the              Another area of importance is           agency to fall victim to a cyber
    compliance box.                          the relationship between the OIG        attack. We may disagree, however,
                                             and the agency’s cyber security         about the best tactics to use to
                                             team and management. The



8    TVA OIG Semiannual Report
prevent or detect an attack. This
is where it becomes crucial that
IGs and their agencies have open,
honest dialogue on differences.
While this may sound easy enough,
too many times this is where the
breakdown occurs.

If an agency leader or staff member
does not feel it is “safe” to voice
their opinion or disagreement with
the IG, then the effectiveness of
our recommendations could be           reviews, we started seeing a lot      common to most people.
significantly diminished. These        of repeat findings. What did that     Once our auditors had enhanced
conversations will not happen          say about the effectiveness of        their trust-building communication
if along the way we have not           TVA’s remediation? What did that      skills and behaviors, we were
taken time to develop working          say about the effectiveness of our    better able to have open, honest
relationships built on mutual          reviews? We were auditing to the      dialogue in an atmosphere where
respect and trust. That does not       regulations and standards,            a discussion of mutual purpose
mean we always have to agree, but      but was TVA really any better off?    was more real. Through these
it does mean we should actively        As a result, we started taking a      discussions we better understood
seek the opinion of, and listen to,    hard look at our relationships with   each other, what each was striving
each other when determining the        TVA and how we were conducting        to accomplish, and found better
best course of action. This sounds     our reviews.                          ways to conduct and communicate
intuitive, but in practice it is the                                         the results of our reviews. As a
exception rather than the rule.        One thing became apparent—            result, we broadened our approach
                                       change was needed and that            from checking compliance to
Over the years, we have conducted      change needed to start with the       focusing on identifying risks
many reviews of TVA in the cyber       OIG. We began by taking a hard        and evaluating risk mitigation
security area which included           look at our relationship with TVA’s   strategies and the maturity level
security reviews of specific           IT organization and how to improve    of risk mitigation plans within each
technical areas, privacy reviews,      it. We recognized that a critical     strategy. In every review we keep
mandated reviews such as FISMA,        component of building trust with      the OIG mission in front of us by
and effectiveness reviews of IT        agency employees was sharpening       asking the question —“Will this
security and the IT organization.      our communication skills. We all      help TVA become better?”
These reviews produced numerous        went to “school.” Auditors and
findings and recommendations           investigators acquired a new set of   Collaboration
for TVA to remediate. After a          “tools” to engage IT employees
lot of time and effort, many of                                              One thing that is clear in cyber
                                       in a respectful way that helped
those recommendations were                                                   security is the way to best protect
                                       diffuse potential conflict or
implemented and the findings                                                 ourselves will require collaboration.
                                       helped resolve conflict. These
were closed. Yet in subsequent                                               Technology has allowed the world
                                       communication skills are not



                                                                                  TVA OIG Semiannual Report          9
                                                                                      staff. Are we in the command and
                                                                                      control mode of “Now Hear This!”
                                                                                      or are we having discussions where
                                                                                      we actively discuss and debate
                                                                                      recommendations with an open
                                                                                      mind? To be effective, we must
                                                                                      obviously choose the latter.

                                                                                      A discussion on recommendations
                                                                                      might, for example, include an
                                                                                      auditor asking a TVA employee
     to interact and collaborate in ways        information sharing is integral to    or manager, “Does this
     we would have never thought                finding cost effective solutions to   recommendation make sense
     possible ten years ago. Today,             reduce the cyber security risks.      to you?” or “Do you think this
     the need to work together to find          In this battle, the agency, IG,       recommendation will help reduce
     solutions to cyber security risks is       and private sector experts will all   the agency’s risks?” If they tell
     important as public and private            need to be in the same proverbial     us “No,” then we need to be
     sectors are dependent on each              foxhole together working on           willing to listen and keep the
     other and on common cyber                  solutions.                            dialogue going to see if there is a
     resources.                                                                       better recommendation. If they
                                                So how do we achieve the level        tell us compliance with a certain
     As Secretary Panetta stated:               of collaboration needed in this       standard is not cost effective or
                                                environment? Collaboration            not achieving better security and
        The private sector,                     does not just happen. There are       we agree, then it is incumbent on
        government, military, and               many factors that affect whether      us to elevate that concern to the
        our allies all share the same           collaboration will occur and how      appropriate group. One way the
        global infrastructure–                  successful it will be. Critical       IG is uniquely qualified to do this
        and we all share the                    components include: making it         is through our Legislative Review
        responsibility to protect it.           safe to have the tough discussions,   section of our semiannual report.
        . . . Ultimately, no one has            as we have discussed above;           Congress has invited Inspectors
        a greater interest in cyber             establishing a mutual purpose so      General to make recommendations
        security than the businesses            everyone is working toward the        in our semiannual report to
        that depend on a safe, secure,          same goal, such as how to best        Congress on the impact of existing
        and resilient global digital            secure our networks against the       and pending legislation.
        infrastructure—particularly             constantly changing threats; and
        those who operate the critical          establishing and maintaining trust.   In reality, OIGs and agency
        networks we must help                   In the end, it all comes down to      employees have conflict every day
        defend.                                 relationships and how well we         that is either resolved responsibly
                                                establish and maintain those          for the mutual benefit of everyone
     TVA, as the largest public power           relationships.                        or there is an “I win/you lose”
     producer in the country and a                                                    conclusion that breeds distrust.
     government corporation, is a part          For OIGs, this may mean taking        Every interaction with agency
     of the nation’s critical infrastructure.   a critical look at how we interact    employees results in either the
     As such, collaboration and                 with agency management and            OIG building trust with them or

10     TVA OIG Semiannual Report
reducing trust. People know             information sharing with not           on technical compliance with laws
whether you are sincere or simply       only TVA but with other external       and regulations.
out to “win.” Winning, of course,       organizations involved in auditing,
in the cyber security arena means       investigating, and operational         So, what is the very best use of an
everybody contributed to a              aspects of cyber security. In our      OIG in this arena? It is imperative
winning strategy that protected         Noteworthy Undertakings section        that we step back and look not
the agency. Winning is not that         of this semiannual report, you         just at “what” (audits, evaluations,
one side or the other “won” a           can read more on a couple of           and investigations) we are doing,
particular point.                       the efforts in this area:              but we must also look critically at
                                        (1) co-sponsoring of the East          “how” we are doing what we do.
Additionally, IGs need to look for      Tennessee Cyber Security Summit,       Is our OIG staff building trust by
nontraditional ways to collaborate      which promotes networking              their competence and character
and enhance the skills and              and information sharing among          that encourages the best response
knowledge of their staff. For           IT professionals in academia,          by agency employees? Are we
example, we conduct fraud risk          government, law, and private           leading by example in making it
assessments within various areas        industry from across the region;       safe to challenge our findings in
of TVA, not only to encourage           and (2) our fraud risk assessment      a productive environment? Do
TVA employees to “own” fraud            program.                               we have the right communication
risks in their area, but also to give                                          “tools” to engage in crucial
OIG auditors and investigators          In the end, collaboration              conversations about high stakes
an opportunity to engage in an          provides knowledge so that we          issues? Do we make it easy for
environment where TVA employees         give meaningful, actionable            agency employees to partner with
see us actively partnering with         recommendations that, when             the OIG because they believe we
them to make TVA better. We             implemented, make a difference         share a mutual purpose?
learn more about what it’s like to      in the agency’s security posture
be in the TVA employees’ shoes          and lowers the overall risk to         Our experience has been that
and, hopefully, the TVA employees       the agency.                            TVA executives and employees
take away a better understanding                                               appreciate the opportunity to
of what it’s like in our world. These   Conclusion                             have “straight talk” about cyber
fraud risk assessments, although                                               security challenges with the OIG,
                                        In a post 9/11 world, focused
not necessarily tied to cyber                                                  and they welcome the opportunity
                                        vigilance against the next big
security, build relationships that                                             to collaborate to prepare for
                                        “war” of cyber attacks requires
serve us all well across TVA. In                                               the increasingly sinister threats
                                        innovation and the will to
this semiannual period, we                                                     facing all government agencies.
                                        win. Winning in this arena for
facilitated a fraud risk assessment                                            They often improve on our
                                        government agencies, like TVA,
with TVA’s Enterprise Information                                              recommendations, and they help
                                        means: (1) having the right
Security & Policy (EIS&P)                                                      educate the OIG about how their
                                        mindset about cyber security,
organization to identify fraud and                                             world really works. Together, we
                                        (2) making it safe for everyone to
related risks in relation to securing                                          stand a much better chance of
                                        bring their best ideas to the table,
TVA cyber and digital assets.                                                  fortifying TVA against cyber
                                        and (3) collaborating with the OIG
                                                                               attacks and, in the process, we
                                        to achieve our mutual purpose
A part of the OIG strategy also                                                build lasting trust to meet the
                                        of defending against a cyber
includes increasing our efforts                                                challenges of tomorrow—whatever
                                        attack. We cannot go back to the
to promote collaboration and                                                   they may be.
                                        “checklist” mentality or simply rely

                                                                                    TVA OIG Semiannual Report         11
     noteworthy
       Undertakings




12
  NOTEWORTHY UNDERTAKINGS
OIG Fraud Risk Assessment Program
The area of greatest collaboration between the OIG and TVA in assessing
risks for TVA has to be our Fraud Risk Assessment (FRA) program because
the OIG takes off our traditional “hat” of doing audits and investigations.
In this program, we facilitate TVA employees identifying fraud risks for
TVA rather than the OIG simply pointing out vulnerabilities and making
recommendations. This is a “hands on” TVA employee process that drives
the identification of risks throughout the organization and provides an
exceptional level of ownership by the TVA employees participating.



In 2004, the OIG kicked off a TVA-       have never previously interacted       The OIG understands employees
wide FRA initiative. An FRA is a         with our office. By offering this      and managers may be hesitant to
proactive tool used by the OIG           constructive environment, the OIG      openly provide information that
in conjunction with TVA business         and participating TVA organization     may reflect negatively on them or
organizations to identify fraud risks.   are able to build strong, positive     their organization. During the FRA,
The goal of the OIG is partnering        working relationships. While           there are no “gotcha” moments.
with TVA management to identify          the primary purpose of FRAs is         The business organization
(1) types of fraud that can occur,       to reduce risks for TVA, the           participants are asked to “think
(2) the likelihood and significance      collateral benefit is the trust that   like the bad guy” and brainstorm
of fraud occurring, (3) controls         is built between the OIG staff and     ways to defraud TVA if there were
in place to prevent fraud, and           TVA employees.                         no controls.
(4) remediation needed to improve
fraud prevention controls.               OIG auditors and investigators         Some examples of fraud schemes
                                         meet with a TVA organization           discussed during various FRAs
Normally, an organization’s              to discuss the FRA process and         include (1) an employee getting
involvement with our office              determine the best fit for the         hurt at home then claiming he
is either related to an audit,           organization’s needs. During           was injured on the job to receive
evaluation, or an investigation;         this meeting, logistics are            workers’ compensation benefits,
however, the FRA is an opportunity       discussed since the OIG wants the      (2) a TVA contractor providing
for TVA management to interact           organization to be comfortable and     false documentation claiming
with the OIG in a collaborative, yet     participate freely during the FRA      work was completed when it
different, capacity.                     process. The OIG has found TVA         was not, and (3) a subcontractor
                                         management to be very receptive        including “ghost” employees on
An FRA also allows OIG staff             to these meetings because it           its payroll causing financial loss to
to meet TVA employees and to             allows managers to ask questions       TVA. During our discussions on
answer any questions they have           and address concerns prior to the      various fraud schemes, actual cases
about our office and how it works.       actual FRA.                            are discussed to give the TVA
It gives TVA a face to associate                                                organization a glimpse into the real
with the OIG, as some employees                                                 world of fraud at TVA.

                                                                                     TVA OIG Semiannual Report          13
                                                                                    identified as high impact, an
                                                                                    organization would be advised
                                                                                    to review current controls and
                                                                                    implement new controls as
                                                                                    needed. Such controls include
                                                                                    ethics training, management
                                                                                    review, and software training.

                                                                                    Since 2004, the OIG has
                                                                                    completed approximately 30 FRAs.
                                                                                    During this reporting period, the
                                                                                    OIG completed four FRAs with
                                                                                    TVA management. These FRAs
                                                                                    were conducted jointly with
                                                                                    (1) a major TVA nuclear and fossil
                                                                                    contractor, (2) physical security
                                                                                    staff at a nuclear plant, and (3) two
                                                                                    other TVA business organizations,
                                                                                    including EIS&P. A number of
                                                                                    risk areas and remediation steps
                                                                                    were identified during these FRAs.
                                                                                    These organizations now have a
                                                                                    road map–the FRA–to enact any
     While focused on the various fraud      organization then lists current        necessary improvements.
     schemes, we also discuss how            controls in place to prevent
     many people participate in these        the identified fraud schemes.          This initiative continues to be an
     schemes. For example, there             Together, the business unit and the    ongoing process to assist TVA
     are fraud schemes carried out           OIG identify controls not in place     in effectively ensuring there are
     by an individual, by two or more        that need to be initiated to protect   adequate antifraud controls across
     individuals acting in collusion,        TVA. Once the FRA has taken            all TVA business units. The FRA
     or by a third party outside TVA.        place, the information discussed       allows our office and TVA’s business
     Generally, collusive fraud is the       is reviewed by both the OIG and        organizations to build meaningful,
     most dangerous, but all fraud           the TVA organization to produce        collaborative relationships in an
     is costly to the company having         a final product.                       ongoing effort to protect TVA’s
     an impact on the company’s                                                     assets. This is another example
     reputation and credibility. Do          The final product includes a           where TVA and the OIG working
     you remember Enron and Arthur           risk map that provides a quick         together make TVA better.
     Andersen?                               reference to the importance of the
                                             schemes identified. Specifically,      East Tennessee Cyber
     After employees have removed            the fraud schemes are identified as    Security Summit
     their “fraudster” hats, all the fraud   being high, medium, or low impact
                                                                                    As discussed in the feature, cyber
     schemes and risk areas identified       based on their potential damage
                                                                                    security is one of the top risks for
     are captured in writing. The TVA        to TVA. For those schemes
                                                                                    businesses and government alike.


14    TVA OIG Semiannual Report
Kyle Cox, TVA OIG; Brent Watkins, FBI; Andrea Brackett, TVA EIS&P; Rob Arnold, TVA EIS&P; Sarah Huffman, TVA OIG;
Casey Rackley, Fountainhead College of Technology; and, Pat Payne, ORNL are pictured at the 2012 Cyber Security Summit.


As such, and with the constantly                    summit is a great opportunity for IT                in Knoxville and had more than
changing landscape of threats,                      professionals to network and learn                  350 in attendance. Attendees
the importance of collaborating                     about the threat landscape and                      generally include IT professionals
and sharing information is critical                 current cyber security trends. The                  in academia, government, law,
in the fight to protect assets and                  planning committee attracts the                     and private industry from across
information. For the past eight                     profession’s top talent to come and                 the region. Sponsorship of this
years, the OIG along with the                       share their insight with individuals                conference is just one more way
University of Tennessee, Federal                    working in the field.                               we can help business and
Bureau of Investigation (FBI), TVA,                                                                     government staff keep up with
Oak Ridge National Laboratory                       The conference has grown                            the latest threat information
(ORNL), and Fountainhead                            significantly over the years and                    and mitigation strategies as well
College of Technology have co-                      has a high number of repeat                         as build strong cross-organization
sponsored the East Tennessee                        attendees. This year, the summit                    working relations.
Security Summit. This regional                      took place October 23 and 24


                                                                                                               TVA OIG Semiannual Report     15
     executive
       Overview




16
  Executive overview
Arguably, one of the greatest risks facing any organization today is
cyber security. Government and businesses alike depend on the same
global infrastructure and have an interest in ensuring its security. Today,
technology is evolving at a rapid pace. While this evolution provides many
benefits, it also presents a formidable security challenge for all companies,
especially those, like TVA, whose mission involves operating and protecting
critical aspects of the nation’s infrastructure. In this semiannual report, we
focus on the role the OIG plays in helping agencies reduce their cyber                               Hydroblasting
security risks.


Audits                                  a new expense management                 compliance audits of contracts
                                        system, and (3) identified               with expenditures totaling
During this reporting period,           improvements needed for the              $458 million related to
the TVA OIG completed                   construction lessons learned             (1) hydroblasting services at
25 audits, reviews, and agreed-         management process. Finally, the         TVA locations; (2) engineering,
upon procedures. Our work               team applied certain procedures          procurement, and construction
identified more than $11.7 million      determined by the Center for             services in support of the
in questioned costs, helped TVA to      Resource Solutions (CRS) to              completion of TVA’s Watts Bar
recover more than $4 million, and       TVA’s Green Pricing Accreditation        Nuclear Plant (Watts Bar) Unit 2;
identified more than $10.2 million      Program to provide assurance that        (3) fly ash management services
in funds to be put to better use.       TVA was in compliance with the           at TVA’s Johnsonville Fossil Plant;
This work also identified numerous      annual reporting requirements of         (4) Authorized Inspection Agency
opportunities for TVA to improve        the program. The Operational             services at TVA nuclear plants;
its programs and operations.            Audits section begins on page 27         and (5) material escalation costs
                                        of this report.                          for components provided in
Operational Audits                                                               support of the completion of the
The team completed four reviews         Contract Audits                          Watts Bar Unit 2 Nuclear Steam
related to craft labor staffing,        To support TVA management in             Supply System. These audits
TVA’s new expense management            negotiating procurement actions,         identified potential overbillings of
application implementation,             we completed four preaward               $8.1 million. The Contract Audits
lessons learned during construction     reviews of cost proposals                section begins on page 30 of
of Lagoon Creek Combined                submitted by companies proposing         this report.
Cycle (LCC) plant, and green            to provide engineering services for
power. Specifically, the team           work at TVA’s Bellefonte Nuclear         IT Audits
(1) identified improvements             Plant Unit 1, and project controls       During this semiannual period, we
needed to mitigate the risks and        support for TVA’s generation             completed seven audits in the IT
potential effects of craft labor        construction projects. Our audits        environment on (1) implementation
shortages, (2) concluded adequate       identified $10.2 million of potential    controls for two applications;
analysis was not performed when         savings opportunities for TVA to         (2) controls over TVA personally
making the decision to implement        negotiate. We also completed five        identifiable information (PII) held


                                                                                      TVA OIG Semiannual Report         17
                                                                                                                              Kingston Fossil Plant




     by two private third parties;                 contract, and financial reporting,                  power contract. The Corporate
     (3) IT general controls for the               we completed audits of (1) TVA’s                    Governance and Finance Audits
     transmission control center,                  Financial Trading Program (FTP)                     section begins on page 35 of
     its backup, and a substation; and             where our audit determined                          this report.
     (4) the OIG’s biennial assessment             the design of TVA’s FTP control
     of TVA’s controls to protect PII.             structure was appropriate, but                      EVALUATIONS
     Our audits found implementation               also identified several areas where
                                                                                                       During this semiannual period,
     controls were effective, data                 management oversight should be
                                                                                                       Evaluations completed five2
     protection controls were generally            improved; (2) TVA’s Direct Load
                                                                                                       reviews. The team completed a
     effective, IT general controls                Control Program (DLC) where our
                                                                                                       review of non-time-critical Kingston
     for transmission facilities could             audit determined the DLC Program
                                                                                                       ash recovery project activities,
     be improved, and TVA’s privacy                is not operating effectively, and TVA
                                                                                                       as part of the OIG’s ongoing
     program had only marginally                   is not employing two key oversight
                                                                                                       commitment to provide oversight
     improved. The IT Audits section               mechanisms afforded by the DLC
                                                                                                       of the Kingston ash spill cleanup.
     begins on page 32 of this report.             contract; and (3) compliance with
                                                                                                       While TVA is making progress
                                                   key terms in contracts between
                                                                                                       in the completion of non-time-
     Corporate Governance and                      TVA and two distributors where our
                                                                                                       critical activities, we found that
     Finance Audits                                audits identified an underpayment
                                                                                                       several activities reviewed did
     With a focus on TVA’s role as a               to TVA of more than $3.6 million
                                                                                                       not meet scheduled completion
     regulator, distributors’ compliance           as well as other isolated instances
                                                                                                       dates which, if continued, could
     with the wholesale power                      of noncompliance with the

                                           2
                                               Inspection 2010-13088 Status Review of the Watts Bar Unit 2 Construction Project Schedule and Budget 	
                                               was completed during this semiannual period; however, due to the significance of the review it was 	
18    TVA OIG Semiannual Report                included in the previous semiannual report.
create an increased risk for delay
of the overall project completion.
Evaluations also audited the
effectiveness of TVA’s energy
efficiency and demand response
programs and determined that TVA
has met or come close to meeting
the goals for these areas. The team
performed a review of the safety of
gas plant and gas line operations
and found that TVA has taken steps
to mitigate the risk of an explosion.
In addition, Evaluations completed
a review of TVA’s process for
determining condition of assets and
found that each of TVA’s generation
and distribution groups uses a          also performed a review of the        opportunity for improvement exists.
form of system health reporting         completion of PowerPlant’s project/   The Evaluations section begins on
to identify the condition of their      portfolio management (PPM)            page 39 of this report.
assets and the asset condition          function and determined that TVA
information is used for planning        achieved some PPM capability with     INVESTIGATIONS
purposes. Finally, evaluations          the new system, but considerable
                                                                              This reporting period, our
                                                                              investigations resulted in one
                                                                              individual convicted in federal
           STATISTICAL HIGHLIGHTS                                             court, another indicted on
                   April 1, 2012 - September 30, 2012                         state charges, and three other
                                                                              persons sentenced federally on
Audit Reports Issued                             25
                                                                              various charges, such as workers’
Evaluations Completed                            6
                                                                              compensation fraud, false
Questioned Costs                                 $11,707,634                  statements, and theft. Additionally,
Disallowed Costs                                 $9,153,313                   one administrative investigation
Funds Recovered                                  $4,167,900                   reported to TVA management is
Funds to Be Put to Better Use                    $10,203,675                  conservatively estimated to save
Funds Realized by TVA                            $1,234,675                   TVA $1.1 million over the next
Investigations Opened                            148                          five years. Our investigations
                                                                              resulted in restitution, fees, and
Investigations Closed                            157
                                                                              projected savings exceeding
Recoveries/Savings/Fines/Penalties               $5,871,398
                                                                              $5.8 million. We opened 148
Other Monetary Loss                              $83,368
                                                                              investigations and closed 157.
Criminal Actions                                 2                            The Investigations section begins
Administrative Actions (No. of Subjects)         11                           on page 43 of this report.




                                                                                   TVA OIG Semiannual Report         19
                                                  tva Oig
                                                  Organization




                                               Inspector General

                                              Deputy Inspector General




Assistant Inspector General,    Assistant Inspector General,    Assistant Inspector General,
                                                                                                  Legal Counsel
       Investigations             Audits and Evaluations               Administration


                                 Deputy Inspector General,        Director, Organizational
 Special Agent in Charge                                                                       Deputy Legal Counsel
                                          Audits                   Health and Resource
                                                                       Management

 Special Agent in Charge             Director, IT Audits

                                                                Manager, Human Resources
                                Director, Operational Audits

                                                                   Public Affairs Officer
                               Director, Corporate Governance
                                     and Finance Audits



                                  Director, Contract Audits



                                    Director, Evaluations
  ORGANIZATION

Over our 27-year history, the OIG has worked to help TVA become
better which is the OIG mission. Through our audits, evaluations, and
investigations, we provide TVA management, the TVA Board, and Congress
with an independent look at the economy, efficiency, and effectiveness
of TVA programs as well as help prevent and detect fraud, waste, and
abuse. Over the years, the OIG has saved TVA millions and recommended
numerous program improvements. We credit our success to the efforts of
our hardworking and talented staff and the professional responsiveness of                       Knoxville, TN
TVA management to our recommendations.



TVA OIG Office Locations                home or while traveling. We         The OIG has a field office in the
The OIG has a work philosophy of        measure productivity, not where     Edney Building in Chattanooga,
being in the right place at the right   the work is done.                   Tennessee, where the Evaluations
time to do the best work possible.                                          unit, members of the Corporate
We support that philosophy by           The OIG has strategically located   Governance and Finance team,
encouraging our OIG employees           its offices near all major TVA      and several Special Agents are
to work where they can be most          offices throughout the Tennessee    located as well as staffed field
effective whether that is in one of     Valley. We are headquartered        offices in Nashville, Tennessee,
our physical offices or whether it is   opposite TVA’s corporate offices    Huntsville, Alabama, and at Watts
one of our virtual offices supported    in the East Tower, overlooking      Bar in Spring City, Tennessee.
by Web cameras that allow our           downtown Knoxville.
employees to telework from                                                  As of September 30, 2012, the
                                                                            OIG had a total staff of 102. The
                                                                            number of personnel located at
    TVA Towers                                                              each staffed office is: Knoxville-80,
                                                                            Chattanooga-15, Nashville-1,
                                                                            Huntsville-4, and Watts Bar-2.

                                                                            ADMINISTRATION

                                                                            The Administration team works
                                                                            closely with the IG, Deputy IG,
                                                                            and Assistant IGs to address the
                                                                            day-to-day operations of the
                                                                            OIG and to develop policies and
                                                                            procedures designed to drive and
                                                                            enhance productivity in achieving
                                                                            office goals. Responsibilities
                                                                            include personnel administration,



                                                                                 TVA OIG Semiannual Report          21
     budget and financial management,      The group uses an impact- and          focus on those issues of highest
     purchasing and contract services,     risk-based approach to develop an      impact and risk to TVA.
     facilities coordination, conference   annual work plan. In developing
     planning, communications              the plan, the OIG considers TVA’s      The Audits team, primarily
     facilitation, and IT support.         strategic plans, major management      based in Knoxville, generates
                                           challenges, TVA’s enterprise risk      and oversees comprehensive
     AUDITS AND                            management process, and other          financial and performance audits
     EVALUATIONS                           input from TVA management. This        of TVA programs and operations,
                                           planning model also evaluates          providing an inclusive picture
     The Audits and Evaluations
                                           each potential engagement from         of TVA’s overall fiscal and
     group performs a wide variety of
                                           the standpoint of materiality (i.e.,   operational health. This team is
     engagements designed to promote
                                           costs or value of assets), potential   made up of four departments—
     positive change and provide
                                           impact, sensitivity (including         Contract Audits, Corporate
     assurance to TVA stakeholders.
                                           public and congressional interest),    Governance and Finance Audits, IT
     Based upon the results of
                                           and the likelihood it will result in   Audits, and Operational Audits.
     these engagements, the Audits
                                           recommendations for cost savings
     and Evaluations group makes
                                           or process improvements. The           VV Contract Audits has lead
     recommendations to enhance the
                                           result of the OIG Audits and              responsibility for contract
     effectiveness and efficiency of TVA
                                           Evaluations planning process is a         compliance and preaward
     programs and operations.



                                                                                          Chattanooga Office Complex




22    TVA OIG Semiannual Report
                          Types of Audit & Evaluation Issues

                             Corporate Governance and                              Operational Audits
                                  Finance Audits
                                                                          • Operational Inefficiency
                            • Internal Control Deficiencies               •	 Not Achieving Intended Results
                            •	 Material Misstatements                     •	 Inferior Performance
                            •	 Legal Noncompliance                        •	 Legal/Regulatory Noncompliance
                            •	 Fraud                                      •	 Fraud



                Information                                     Evaluations                                Contract Audits
             Technology Audits
                                                     •	 Internal Control Deficiencies               • Inflated Proposals
       •	 Unauthorized Access                        •	 Operational Inefficiency                    •	 Contract Overpayments
       •	 Inadequate Controls                        •	 Policy Noncompliance                        •	 Inferior Performance
       •	 Lack of Data Integrity                     •	 Fraud                                       •	 Fraud
       •	 Fraud




   audits. In addition, this group                 of TVA’s IT infrastructure,                  policy and program reviews. In
   performs reviews of TVA                         application controls, and                    accordance with the Quality
   contracting processes and                       general controls associated                  Standards for Inspection and
   provides claims assistance as                   with TVA systems. This group                 Evaluation, the objectives of the
   well as litigation support.                     also performs operational                    unit include providing a source of
                                                   reviews of the effectiveness of              factual and analytical information,
VV Corporate Governance and                        IT-related functions.                        monitoring compliance, measuring
   Finance Audits has lead                                                                      performance, assessing the
   responsibility for oversight of             VV Operational Audits focuses                    efficiency and effectiveness of
   TVA’s (1) financial statement                  on risk and impact-driven                     operations, and conducting
   audit and related services                     operational audit work. The                   inquiries into allegations of fraud,
   performed by TVA’s external                    team performs audits of                       waste, abuse, and mismanagement.
   auditor and (2) regulatory                     operational effectiveness                     Audit and evaluation issues vary
   activities, including TVA                      and efficiency, as well as TVA                depending on the objectives of the
   distributors’ compliance with the              compliance with laws and                      project. The graphic above shows
   wholesale power contract and                   regulations.                                  some representative examples of
   conducts operational reviews to                                                              issues commonly reported by each
   assess the results as well as the           The Evaluations team seeks to                    department.
   economy and efficiency of TVA’s             ensure that program objectives
   financial programs.                         and operational functions are
                                               achieved effectively and efficiently.
VV IT Audits has lead responsibility           It performs both comprehensive
   for audits relating to the security         reviews and more limited scope


                                                                                                        TVA OIG Semiannual Report      23
     INVESTIGATIONS                                 other investigative agencies and                task forces on terrorism, the
                                                    organizations on special projects               environment, and health care.
     The Investigations team uncovers               and assignments, including                      The graphic below shows the
     activity related to fraud, waste,              interagency law enforcement                     major categories of investigations.
     and abuse in TVA programs and
     operations. This team performs                                                                 Legal
     its investigations in accordance
     with the Quality Standards for                                                                 The OIG Legal Counsel team
     Investigations. The investigators                                                              monitors existing and proposed
     maintain liaison with federal and                                                              legislation and regulations that
     state prosecutors and file reports                                                             relate to the mandate, operations,
     with the U.S. Department of                                                                    and programs of the OIG and
     Justice whenever the OIG has                                                                   TVA. Additionally, this team
     reason to believe there has been                                                               provides legal advice as needed for
     a violation of federal criminal law.                                                           administrative, audit, evaluation,
     The investigators partner with                                                                 and investigative projects.




                           Major Categories of Investigations

                                       Contract Fraud                        Theft of Government
                                   Defrauding TVA through its               Property and Services
                                   procurement of goods and                Theft of TVA property and schemes
                               services including fraud schemes             to defraud…designed to deprive
                                  may include misrepresenting                 individuals, the people, or the
                                    costs, overbilling charges,           government of intangible rights, such
                                    product substitution, and               as the right to have public officials
                               falsification of work certifications.          perform their duties honestly.


           Environmental Crime                            Health Care Fraud                       Illegal Hacking Into TVA
           Violations of environmental criminal        Intentional misrepresentation of               Computer Systems
         law pertaining to the Tennessee River          health care services, expenses,              Accessing a TVA computer
          system and its watershed, along with         billings, needs, or coverage that              without authorization or
           violations relating to TVA land and        results in unauthorized payments              exceeding authorized access.
                         facilities.                            or other benefits.



                Workers’                               Employee Misconduct                               Special Projects
            Compensation Fraud                            Misuse of TVA furnished                    Management requests, data
          Employee fraud, medical fraud,             equipment, travel voucher fraud,                   mining and predictive
           premium fraud, and employer                  a multitude of miscellaneous                 analysis, Congressional and
         fraud, most often a false claim of             matters of abuse, conflict of                 Board requests, and fraud
            disability to receive benefits.          interest, and alleged violations of                  risk assessments.
                                                              code of conduct.




24     TVA OIG Semiannual Report
John Sevier Combined Cycle Plant



                                   TVA OIG Semiannual Report   25
SUMMARY OF
Representative Audits
 Summary of
Representative Audits
During this reporting period, the TVA OIG completed 25 audits, reviews,
and agreed-upon procedures. Our work identified more than $11.7 million
in questioned costs, helped TVA to recover more than $4 million, and
identified more than $10.2 million in funds to be put to better use. This
work also identified numerous opportunities for TVA to improve its programs
and operations. Below is a discussion of completed reviews in the following
areas: (1) operational, (2) contract preaward and compliance, (3) IT,
                                                                                          Bellefonte Nuclear Plant
(4) corporate governance, finance, and distributors of TVA power.




Operational Audits                     roofers. Annual craft employees          effects of craft labor shortages
                                       are salary employees responsible         and evaluate TVA’s performance
During this semiannual reporting       for performing operations                to date. Our audit scope included
period, Operational Audits             and maintenance as well as               the mitigation plans as defined in
assessed TVA’s plans to address        modifications. TVA uses two types        TVA’s Enterprise Risk Management
potential craft labor shortages,       of contractor craft labor. Staff         document dated July 13, 2011,
identified opportunities to improve    augmented craft are under the            and additional mitigations for
the selection process for future IT    supervision of a TVA employee            contractor craft labor within the
systems, and audited the use of        and may be brought in to assist          Generation Construction (GC),
lessons learned from construction      with operations and maintenance          Coal Operations, Gas Operations,
of TVA’s Lagoon Creek plant.           or modifications if the skill level or   Nuclear Construction, and
The team also applied certain          the amount of work exceeds the           Nuclear Power Group
procedures to provide assurance        ability or number of annual craft        organizations. TVA mitigation
that TVA was in compliance with        employees. Managed task craft            actions for addressing craft labor
the annual reporting requirement       are managed by a supplier who            risk included (1) scheduling nuclear
of the Green Pricing Accreditation     is providing services to TVA. This       and fossil outages that enable
Program.                               type of craft is utilized for some       a steady stream of work to the
                                       maintenance and modification             already existing labor workforce;
Craft Labor Staffing                   work and all construction projects       (2) craft training programs;
TVA’s craft labor workforce is         at TVA. Both types of craft are          (3) benchmarking with the Utility,
comprised of annual employees          necessary to help TVA achieve            Building, and Construction
and contractor labor. Craft labor      its future long-term goals as            Industry Employer Association for
includes, but is not limited to,       contained in its Integrated              additional mitigation actions; and
laborers, boilermakers, bricklayers,   Resource Plan (IRP).                     (4) increasing compensation and
machinists, electrical workers,                                                 benefits marginally above market
ironworkers, equipment operators,      We assessed TVA’s plans to               levels and/or utilizing other crafts
painters, steamfitters, and            mitigate the risks and potential         with the skill sets necessary for the


                                                                                     TVA OIG Semiannual Report          27
                                                                                                        Power Service Shop




     job. We focused on TVA’s plans         could be made to the process           our findings and recommendations
     with regard to the contractor          for assessing and monitoring risk      and is taking actions to address
     craft workforce.                       related to craft labor.                these issues.

     Based on our review of TVA’s plans     TVA has passed the management          New Expense
     and actions to mitigate the risk       of craft labor risk to contractors,    Management Application
     and potential effects of craft labor   unions, and other organizations.       Implementation
     shortages, we determined plans         In our opinion, TVA, as part of its    According to project
     and actions were inadequate to         economic development mission,          documentation, in fiscal year (FY)
     aid in the achievement of future       has an obligation to participate in    2010, TVA’s CEO tasked Financial
     goals as identified in TVA’s IRP.      efforts to replenish shrinking craft   Services (FS) with replacing all
     Specifically, we determined risk       labor pools. In addition, to achieve   TVA-issued purchasing cards
     mitigation actions related to          long-term goals as identified          with a single corporate credit
     competition needs improvement          in TVA’s IRP, it is necessary to       card solution to maximize TVA’s
     and deficiencies existed in risk       develop actions for attracting and     credit card rebates. FS personnel
     planning and mitigation related        retaining craft labor and/or look      stated the intent was to reduce
     to the shrinking labor pool. In        for alternative solutions. TVA         the number of outstanding cards
     addition, we noted improvements        management generally agreed with       and decrease risk exposure.



28    TVA OIG Semiannual Report
The project plan stated FS and       understanding the reasons and           LCC. The audit objective was to
IT formed a project team to          parameters for implementing a new       identify lessons learned and how
implement the new solution.          expense management system, the          these lessons are being or can be
The project team proposed a new      project team’s efforts to follow the    applied to subsequent construction
expense management system be         process as outlined in the project      projects.
implemented to replace TVA’s         management policies were wasted
three legacy systems. The OIG        and resulted in schedule delays as      We determined GC has a process
assessed whether TVA performed       well as project management team         in place for lessons learned
adequate analysis for its decision   frustrations. TVA management            management; and, during the
to implement the system. Our         generally agreed with our findings      audit, TVA issued the Project
audit scope included the analysis    and recommendations and is taking       Lessons Learned Management
performed to make the decision       actions to address these issues.        policy, which provides beneficial
to implement the system as of                                                guidance on the roles and
May 31, 2011, as well as             Lessons Learned During                  responsibilities of project
documentation supporting those       the Construction of                     teams in regard to managing
decisions.                           Lagoon Creek Combined-                  lessons learned. However, we
                                     Cycle Plant                             identified some potential areas of
We concluded, based on project       TVA utilizes a variety of generation    improvement in the GC process.
documentation and discussions        sources to provide power. Among         Specifically, we determined
with project management              these are TVA’s natural gas/oil-fired   (1) there is no documented criterion
personnel, adequate analysis was     facilities, which include combustion    or review process for determining
not performed in the decision        turbine plants such as the LCC          what is or is not a lesson learned,
to implement the new expense         and John Sevier Combined Cycle          (2) the process for documenting
management system. Specifically,     (JCC) plants. GC maintains a            lessons learned could be improved,
the decision was made without        database of lessons learned from        and (3) there are no mechanisms
adherence to TVA’s project           projects. Lessons learned involve       to reasonably assure project teams
management policies, resulting       collecting information on events        are reviewing lessons learned
in time delays within the project,   and incidents that either positively    from previous projects or relevant
inadequate budget planning,          or negatively impacted the conduct      lessons learned are incorporated
duplication of efforts including     or performance of a project.            into the project’s scope. TVA
potential waste of resources and     Lessons learned can be used for         management generally agreed with
project management inefficiencies.   future projects to prevent repeated     our findings and recommendations
Even though steps were taken         issues and improve subsequent           and is taking actions to address
to (1) define a business need,       performance, such as other              these issues.
(2) derive estimates for cost        projects similar to LCC and JCC.
and time implementation and                                                  Agreed-Upon Procedures
identify ownership, (3) evaluate     Because of the potential usefulness     for CRS Green-e Energy
alternative system solutions,        of a sound lessons learned              Program FY 2011
(4) obtain approvals and define      process in completing generation        TVA’s Green Power Switch Program
a budget, and (5) assess current     construction projects effectively       produces electric power from
and future business conditions,      and efficiently, the OIG reviewed       renewable resources such as solar,
these efforts were made after the    the lessons learned process             wind, and methane gas, and adds
new system was chosen. Without       used during the construction of         such sources to TVA’s power mix.



                                                                                  TVA OIG Semiannual Report         29
                                                                                   potential savings opportunities
                                                                                   for TVA to negotiate. The savings
                                                                                   opportunities were primarily related
                                                                                   to over-stated indirect cost recovery
                                                                                   rates.

                                                                                   Contract Compliance
                                                                                   Reviews
                                                                                   During this semiannual period, we
                                                                                   completed five compliance audits
                                                                                   of contracts with expenditures
                                                                                   totaling $458 million and
                                                                                   identified potential overbillings
                                                                                   of $8.1 million. Highlights of our
                                                                                   completed compliance audits
                                                                                   follow.

                                                                                   VV We audited $15.4 million
                                                                                      in costs billed to TVA by
                                                                                      a contractor for providing
                                                               Solar Panels
                                                                                      hydroblasting services at TVA
                                                                                      locations. In summary, we
                                                                                      determined the contractor had
     Both solar and wind power are          verified that TVA’s Green Power           overbilled TVA $4,145,909,
     produced in sufficient quantities to   sales were based on electricity           including:
     qualify for accreditation standards    generated or acquired from eligible
     administered by the CRS. The           renewable sources and otherwise           vv $2,482,444 in unsupported
     OIG completed agreed-upon              met the requirements. CRS was                costs related to (1) missing
     procedures to assist the CRS in        provided with results of the applied         cost details, (2) unclassified
     determining TVA’s compliance           procedures.                                  costs, (3) subcontractor costs,
     with the annual reporting                                                           (4) labor costs, and
     requirements of the CRS Green          Contract Audits
                                                                                         (5) equipment and materials.
     Pricing Accreditation Program for
                                            Preaward Contract Reviews
     the year ended December 31,                                                      vv $1,113,702 in costs for
                                            To support TVA management in
     2011. These procedures included                                                     hydroblasting services
                                            negotiating procurement actions,
     steps to verify that the renewable                                                  because the contractor
                                            we completed four preaward
     energy supply was sufficient to                                                     billed excessive hours
                                            reviews of cost proposals submitted
     meet sales, products met the                                                        for equipment operating
                                            by companies proposing to provide
     Green-e criteria and stated product                                                 time and hourly rates for
                                            (1) engineering services for work
     content and marketing as well as                                                    equipment and employees
                                            at TVA’s Bellefonte Nuclear Plant
     product information was accurate                                                    not provided for in the
                                            Unit 1, and (2) project controls
     and communicated to customers.                                                      contract.
                                            support for TVA’s GC projects. Our
     The results of the procedures
                                            audits identified $10.2 million of


30    TVA OIG Semiannual Report
  vv $393,848 of ineligible           TVA’s Contract Officer as required       not invoice costs for the
     costs for (1) equipment and      by the PMMA.                             staff augmentation services
     materials; (2) labor costs;                                               separately as required by
     (3) mobilization/                VV We performed an interim               the contract, and improperly
     demobilization; (4) travel,         audit of $397 million in costs        included these costs in
     meals, and per diem; and            billed to TVA by a contractor         the contractor’s annual
     (5) fuel surcharges.                for providing engineering,            performance fee base.
                                         procurement, and construction
  vv $135,941 due to the use of          services in support of the          vv $546,054 in other ineligible
     incorrect billing rates.            completion of TVA’s Watts              or unsupported direct costs,
                                         Bar Unit 2. In summary, we             which included (1) $534,835
  vv $41,837 in duplicate billings.      determined the contractor              for relocation, temporary
                                         overbilled TVA an estimated            assignment, and travel costs;
  vv Credit for $21,863 in               $1,449,752, including:                 (2) $5,795 for other nonlabor
     discounts that had been                                                    direct costs; and (3) $5,424
     provided by the contractor.         vv $903,698 in labor and               for fees on subcontractor
                                            related costs, which included       costs.
We also noted numerous instances            (1) $778,617 in ineligible
where the contractor did not pay            home office labor costs,         vv We audited $35.7 million in
its employees in accordance with            (2) $75,309 in excess               costs billed to TVA under two
the Project Maintenance and                 payroll additive costs,             contracts by a contractor for
Modification Agreement (PMMA)               (3) $34,098 in excessive            providing (1) assistance in
labor provisions in the contract.           labor costs, and (4) $15,674        the offsite fly ash utilization
In addition, the contractor did             in fees for staff augmentation      project at Johnsonville
not submit “Weekly Statement of             services. In addition, we           Fossil Plant, (2) ash pond
Payroll Compliance” reports to              found the contractor did            management services at
                                                                                Johnsonville Fossil Plant, and
                                                                                (3) additional work described
                                                                                in separate Task Agreements
                                                                                executed by TVA and the
                                                                                contractor. In summary, we
                                                                                determined the contractor
                                                                                billed TVA (1) $1,479,630 for
                                                                                work that was not authorized
                                                                                under the contracts and
                                                                                (2) $186,955 in excessive and
                                                                                unsupported costs.

                                                                             vv $1,479,630 was billed for
                                                                                work not included in the
                                                                                contracts’ scopes and not
                                                                                authorized by separate Task
                                                                                Agreements. Additionally,



                                                                               TVA OIG Semiannual Report          31
                                                                                      eligibility certifications and
                                                                                      other related documentation.

                                                                                    vv An estimated $7,389 in
                                                                                       unsupported or ineligible
                                                                                       travel and miscellaneous
                                                                                       costs.

                                                                                 VV We audited a contractor’s
                                                                                    billed and estimated remaining
                                                                                    material escalation costs for
                                                                                    components provided in support
                                                                                    of the completion of the Watts
                                                                                    Bar Unit 2 Nuclear Steam
                                                                                    Supply System. In summary,
                                                                                    we determined the contractor
                                                                                    overbilled a net $26,917 in
                                                                                    material escalation costs and
                                                                                    overestimated the remaining
                                                                                    material escalation costs by
                                                                                    $137,408. In addition, we
                                                                                    identified compensation terms in
           the cost was billed using rates   Authorized Inspection Agency           the contract that needed to be
           that were (1) not provided        services under three contracts.        clarified to reduce the potential
           for by the contracts and          In summary, we determined the          for billing discrepancies.
           (2) higher than rates included    contractor had overbilled TVA an
           in another contract TVA has       estimated $679,370, including:      IT Audits
           with the contractor. As a
           result, the unauthorized cost     vv $524,623 of ineligible labor     During this semiannual period, we
           was inflated by $44,008.             costs including: (1) $517,358    completed seven audits in the IT
                                                in excessive labor costs         environment on (1) implementation
        vv $186,955 was overbilled due          because the contractor did       controls for two applications;
           to:                                  not bill actual employee         (2) controls over TVA PII held
            »» $170,993 in excessive            wages, associated labor          by two private third parties;
               costs that were billed on        burden, and fee as specified     (3) IT general controls for the
               three Task Agreements.           by the contracts; and            transmission control center and its
            »» $13,866 in unsupported           (2) $7,265 of ineligible labor   backup and a substation; and
               costs.                           costs billed for corporate       (4) the OIG’s biennial assessment
            »» $2,096 in excessive costs        personnel.                       of TVA’s controls to protect PII.
               billed due to an inflated
               tonnage rate.                 vv $147,358 in temporary living     Implementation Controls
                                                allowance costs for which the    Were Effective
     VV We audited $10.4 million                contractor could not provide     Pre-implementation/
        in costs billed for nuclear             the contracts’ required          implementation audits are


32    TVA OIG Semiannual Report
performed to (1) evaluate and test   Data Protection Controls               of and compliance with TVA
the proposed control environment     Were Generally Effective               contract terms for security and
in new systems and (2) determine     TVA contracts with vendors to          data protection. In summary, we
if applicable policies and           provide certain employment-            determined both vendors (1) had
procedures were followed during      related services. Due to the nature    appropriate controls in place to
system development. During           of the contracted services, TVA        effectively protect PII/PHI during
this reporting period, the OIG       must provide these vendors with        transmission and processing and
completed a pre-implementation       information which is classified        (2) complied with the security terms
audit for TVA’s general ledger       either as PII or protected health      in the TVA contract. However, we
upgrade and an audit of the phase    information (PHI). During this         identified control improvements
one implementation of a new work     reporting period, we completed         for each vendor and TVA that, if
process management application.      audits of the vendor who provided      implemented, would strengthen
We found implementation plans        travel services and another vendor     data protection controls. TVA
and processes were generally         who provided flexible spending         management agreed with our
adequate regarding application       account management services.           findings and recommendations and
access controls, system security,    We audited the (1) security controls   is implementing the improvements.
system testing, data verification,   for protecting TVA employee
and the general controls included    data during transmission and           IT General Controls for
in our audit scope.                  processing and (2) adequacy            Transmission Facilities
                                                                            Could Be Improved
                                                                            TVA has certain generating and
                                                                            transmission facilities that have
                                                                            been identified as critical assets
                                                                            using the criteria provided by the
                                                                            North American Electric Reliability
                                                                            Corporation. As such, these
                                                                            assets are subject to the Critical
                                                                            Infrastructure Protection program.
                                                                            We performed an audit of the
                                                                            transmission control facility and its
                                                                            backup, which are included in the
                                                                            Critical Infrastructure Protection
                                                                            program, as well as an audit of a
                                                                            substation, to assess the adequacy
                                                                            of general, logical, and physical
                                                                            controls. We found weaknesses
                                                                            in each control area tested during
                                                                            the audit. Unauthorized access
                                                                            originating from non-network
                                                                            resources, such as USB memory
                                                                            products and leveraging the
                                                                            security weaknesses, could allow
                                                                            a malicious attacker to cause



                                                                                 TVA OIG Semiannual Report          33
     unplanned outages and equipment         such as date and place of birth      and accessible environment.
     damage. TVA management                  or mother’s maiden name. The         Specifically, we found (1) the privacy
     agreed with our findings and            OIG conducted this audit as an       program controls were not effective
     recommendations and is                  independent review of TVA’s use      to protect PII; (2) controls over the
     implementing improvements.              of PII in accordance with privacy    reporting of privacy breaches could
                                             provisions of the Consolidated       be improved; and (3) other control
     Privacy Program                         Appropriations Act of 2005.          weaknesses were present, which
     Effectiveness Only                      This is our third review since the   had been reported in previous
     Marginally Improved                     requirement was enacted. Since       OIG audits. TVA management
     PII is defined by the OMB in            the OIG’s previous review, TVA       agreed with our findings and
     Memorandum 07-16 and refers             has improved its privacy standard    recommendations.
     to information which can be used        policies and procedures and
     alone to distinguish or trace an        increased the use of encryption      Corporate
     individual’s identity. This includes    for storage of data containing       Governance and
                                                                                  Finance Audits
     an individual’s name, social security   PII. However, TVA’s progress in
     number, biometric records, or when      its privacy program development      During this semiannual period,
     combined with other personal/           has not kept pace with the           Corporate Governance and
     identifying information, is linked      challenges of safeguarding PII       Finance Audits completed audits
     or linkable to a specific individual,   in today’s increasingly complex


34    TVA OIG Semiannual Report
of (1) TVA’s FTP, (2) TVA’s DLC,                      dramatic drop in the price of                      as well as ensure TVA stakeholders’
and (3) compliance with key terms                     natural gas over the period.                       understanding of the program.
in contracts between TVA and                          In addition, TVA, as of                            Specifically:
two distributors. In addition, the                    December 31, 2011, expects
team provided oversight of and                        the hedging program to add                         VV TVA has not conducted a
assistance to TVA’s external auditor.                 $421 million to natural gas costs                     comprehensive cost benefit
                                                      of $3.7 billion for the period                        analysis to determine whether
TVA’s Financial                                       January 2012 to December 2017                         the benefits derived from the
Trading Program                                       for total natural gas costs of                        FTP are greater than the inherent
The TVA Board of Directors (TVA                       $4.1 billion. Although this situation                 risks of the program;
Board) approved an FTP Pilot                          could reverse in an environment
in September 2003 to hedge                            with rising gas prices, it illustrates             VV TVA does not currently measure
or otherwise limit economic                           the significant potential impact,                     the performance of the FTP
risk associated with the price of                     positive and negative, the FTP                        against defined program
commodities currently recovered in                    can have on TVA’s FCA while                           objectives; and
TVA’s Fuel Cost Adjustment (FCA).                     attempting to reduce the overall
At that time, the maximum Value                       volatility of fuel cost for generating             VV TVA’s communications with its
at Risk3 (VaR) for TVA’s portfolio                    electricity.                                          customers did not sufficiently
was not to exceed $5 million on an                                                                          convey the FTP’s impact on
annual basis without the approval of                  Due to the significant size of the                    rates.
the TVA Board. On May 17, 2005,                       natural gas hedging program,
the TVA Board approved a request                      compared to other hedged                           Based on the findings noted above,
to expand and fully implement the                     commodities, we generally limited                  we made recommendations to
FTP. The program currently has an                     our audit scope to the natural gas                 TVA management to improve
aggregate transaction limit of                        hedging program. The objectives                    the program. TVA management
$130 million (based on one-                           of our audit were to evaluate:                     generally agreed with our findings
day VaR), of which $90 million is                     (1) management oversight and the                   and recommendations and is taking
allocated to natural gas hedging.                     design of controls to mitigate risk;               corrective actions to address these
                                                      (2) program objectives and related                 issues.
From FY 2006 through the first                        performance measures;
quarter of FY 2012, TVA’s natural                     (3) whether TVA is meeting defined                 TVA’s Direct Load
gas-related costs have been                           performance objectives; and                        Control Program
$3.14 billion; the FTP hedging                        (4) the FTP impact to TVA’s overall                The DLC program was developed
program contributed another                           risk tolerance.                                    by TVA in the 1970s as a means to
$840 million for total costs of                                                                          shift load from on-peak/high-priced
$3.98 billion. This contribution                      Our audit determined the design                    periods to off-peak/low-priced
reflects the difference between                       of TVA’s FTP control structure                     periods. Shifting of the load was
the locked-in price of natural gas                    was appropriate. However, we                       to be accomplished through the
and the market price of                               identified several areas where                     installation of radio-controlled
natural gas at the time of delivery.                  management oversight should be                     switches to cycle air conditioners
TVA management stated the                             improved to validate the usefulness                and water heaters for either
$840 million is a result of the                       and effectiveness of the program                   reliability or economic purposes.



3
    A calculation representing the amount of money TVA could lose over a certain period of time with 	
    a certain level of confidence.
                                                                                                             TVA OIG Semiannual Report          35
     Participating distributors install the      old and prone to operational          issuing and the costs necessary to
     switches (which are provided by             problems. TVA personnel               operate the equipment effectively,
     TVA) on end users’ equipment, and           estimated the program had a net       it does not appear the program can
     the distributors receive monthly            cost of about $2.2 million to TVA     provide a positive return for TVA.
     credits on their wholesale bills for        in FY 2007.
     each switch. Presently, there are                                                 Based on the findings noted above,
     12 distributors participating in the     VV TVA is not using two key              we made recommendations to
     DLC program. Credits provided               contractual oversight                 TVA management to improve
     to these distributors during 2011           mechanisms for verifying              the program. TVA management
     ranged from $5,909 to more than             the program is operating as           generally agreed with our findings
     $1 million for a total cost to TVA of       intended and distributor reports      and recommendations and is taking
     $2,365,819.                                 to TVA are accurate. The first        corrective actions to address
                                                 oversight mechanism gives             these issues.
     We performed an audit of TVA’s              TVA the right to perform an
     DLC program to address concerns             annual audit to determine the         Distributor Audits
     regarding the benefits of the               operational condition of installed    TVA sells power under the contracts
     program. The objectives of our              switches. According to program        it holds with 155 distributors –
     audit were to determine the                 managers, the only review of          municipalities and cooperatives.
     effectiveness of the program and            the installed switches performed      Distributors resell TVA power to
     TVA’s oversight of the program.             under this mechanism occurred         consumers across the Tennessee
                                                 in 2006. The second oversight         Valley. We audited compliance
     We determined the DLC program is            mechanism requires distributors       with power contracts TVA held
     not operating effectively, and TVA          to supply TVA with an annual          with two distributors. Key contract
     is not employing two key oversight          listing of participant information.   provisions in the audit included:
     mechanisms afforded by the DLC              No distributor has provided           (1) proper reporting of electric
     contract.                                   participant information since         sales, (2) nondiscrimination in
                                                 the current program manager           providing power, and (3) use of
     VV The program is not operating             took over the position in 2010.       electric revenue for approved
        effectively because much of              However, distributors have            purposes. The following describes
        the DLC program equipment is             continued to receive the credits      issues noted in our audits.
        outdated and in disrepair, and           on their wholesale power bill,
        the program cost is substantially        as TVA has not enforced these         VV Underpayment to TVA
        higher than the savings TVA              contract provisions.                     One distributor did not report
        achieves. The computer system                                                     331,038 kilowatts of demand
        used to regulate the program          In summary, the cost of the DLC             to TVA for a commercial
        is more than 20 years old, and        program is continuing to grow               customer in January 2010. The
        there are limited resources           although the benefits derived from          wholesale effect of this error
        available to provide upkeep           the program are limited. Billing            was an underpayment to TVA
        and maintenance on its software       credits provided by TVA were                of $3,601,693. The distributor
        and hardware. In addition, the        $2.36 million in 2011, which is             agreed with our finding and was
        equipment (transmitters and           $160,000 more than TVA reported             billed for the error on its June
        repeaters) required to operate        during 2007. Based on the                   2012 power invoice from TVA
        the system is about 30 years          increased level of credits TVA is           which was subsequently paid.


36    TVA OIG Semiannual Report
Transmission Lines




   VV Use of Electric System Funds           both distributors. The impact        findings, with the exception of
      for Nonelectric Purposes               of these issues where we             the finding related to the use
      One distributor used electric          had adequate information to          of electric funds for purposes
      department funds for nonelectric       estimate was not significant to      not allowed under the power
      purposes that were inconsistent        TVA or the distributor.              contract. TVA stated it plans
      with provisions in the contract.                                            to recommend formal approval
      This distributor deposited          VV Other Contract Requirements          by the TVA Board of a use of
      $76,500 to an economic                 The distributors did not comply      revenues policy allowing the use
      development account shared             with certain other contract          we noted and the distributor
      by the other three municipal           requirements and/or their own        agreed with TVA’s planned
      utility service departments in FY      policies requiring: (1) evaluation   action. Therefore, neither TVA
      2009 from which disbursements          of customers for a demand            nor the distributor intends to
      are made for economic                  meter, (2) entering of contract      halt the identified use of electric
      development. TVA management            demand values in the billing         funds, unless the TVA Board
      agreed this practice is not            system, (3) certifications for       does not approve the proposed
      expressly allowed under the            credits provided to customers,       policy change.
      power contract and they plan           and (4) contracts with customers
      to recommend the TVA Board             whose demand exceeded
      formally approve a Use of              the threshold requirement for
      Revenues policy, which would           customer contracts.
      expressly approve distributors’
      use of electric system revenues     VV Internal Controls
      for economic development               We noted opportunities to
      under certain circumstances.           help the distributors improve
                                             internal control over customer
   VV Misclassifications                     adjustments, accuracy of
      We noted instances where               contract demand billing data,
      customers were not classified          and reporting to TVA.
      properly and similar customers         TVA management and the
      were not classified the same at        distributors agreed with our


                                                                                   TVA OIG Semiannual Report            37
 SUMMARY OF
Representative Evaluations
    Summary of
Representative Evaluations
During this semiannual period, Evaluations completed five4 reviews,
including a review of the completion of PowerPlant’s PPM function. The
team also completed a review of non-time-critical Kingston ash recovery
project activities, as part of the OIG’s ongoing commitment to provide
oversight of the Kingston ash spill cleanup. In addition, the team reviewed
TVA’s process for determining the condition of assets and the effectiveness
of TVA’s energy efficiency and demand response programs as well as
performed a review of safety of gas plant and gas line operations. More                                              Kingston Fossil Plant
information on each of the reviews can be found below.




Completion of PowerPlant’s                           new system, but considerable                        PowerPlant system or purchasing
Project/Portfolio                                    opportunity for improvement exists.                 another system to provide a
Management Function                                  According to several portfolio                      PPM tool to more efficiently and
Because of the importance                            managers, because PowerPlant                        effectively manage TVA’s capital
of successful capital project                        does not provide the tools for                      projects, (2) complete additional
management, and in light of recent                   effectively managing projects, they                 PowerPlant training as planned,
capital project cost overruns and                    continue to use Excel spreadsheets                  and (3) develop a strategy for
schedule delays, we initiated a                      or other project management                         communicating system changes,
review of TVA’s capital project                      software to manage their projects.                  upgrades, and modifications.
management. The objective of our                     As a result of our review, we
work was to determine whether the                    identified (1) the PowerPlant PPM                   Non-Time-Critical
PPM function of PowerPlant meets                     tools do not currently meet all                     Kingston Ash Recovery
the needs of the strategic business                  needs identified by the SBUs,                       Project Activities
units (SBU).                                         (2) users feel they have not been                   On Monday, December 22, 2008,
                                                     adequately trained on some                          the ash containment area at
PowerPlant replaced TVA’s Project                    functions of the system, and                        the Kingston Fossil Plant failed.
Justification System on March 7,                     (3) communication of defects that                   Approximately 5.4 million cubic
2011, at a cost of about $7 million.                 have been resolved would benefit                    yards of fly ash and bottom ash
PowerPlant was implemented                           users.                                              were released onto land and
to replace the assets module                                                                             adjacent waterways. As part of
within the Enterprise Financial                      We recommended the Vice                             the OIG’s ongoing commitment to
Management System, while also                        President and Controller                            provide oversight of the Kingston
providing the functionality to                       (1) consider implementing                           ash spill cleanup, we reviewed
centralize PPM. TVA achieved                         additional project management                       TVA’s non-time-critical Kingston Ash
some PPM capability with the                         functionality available in the                      Recovery Project activities.


4
    Inspection 2010-13088 Status Review of the Watts Bar Unit 2 Construction Project Schedule and Budget 	
    was completed during this semiannual period; however, due to the significance of the review it was 	
    included in the previous semiannual report.                                                               TVA OIG Semiannual Report         39
     The objectives of this review were       is determined that the overall           uses this information in planning.
     to determine (1) the overall status      schedule will be delayed beyond          The scope of this review did not
     of the non-time-critical phase of the    the date disclosed in the footnotes      include assessing the condition of
     Kingston Ash Recovery Project and        of TVA’s financial statements, then      TVA assets. This review included
     (2) if TVA is meeting the schedule       the disclosure should be updated.        the Nuclear Power Group, Fossil
     for non-time-critical activities.        TVA management agreed with our           Power Group, Energy Delivery, and
     We found TVA made significant            recommendation and has taken             River Operations (RO) groups.
     progress in the non-time-critical        actions to address it.
     phase of the Kingston Ash
     Recovery Project. Specifically, TVA
     recently completed the following
     activities: removed ash from the
     north embayment, buttressed
     Dike C, transferred a portion of a
     nearby ball field to the Kingston
     Fossil Plant, and replaced the
     skimmer wall in the intake channel.
     In addition, TVA has ongoing
     non-time-critical activities that
     include excavating ash from the
     middle embayment, constructing
     the perimeter wall stabilization                                                                 Ash Spill Cleanup
     around the on-site disposal areas,
     disposing of ash on-site, studying
     the effects of residual ash on the       Survey of TVA’s Process for              We found the condition of assets
     river system, and creating a master      Determining Condition of                 is identified through system,
     plan for park and recreation areas.      Assets                                   program, and component health
                                              In 2010, TVA conducted a                 assessments. While all the TVA
     While TVA is making progress in          benchmark study which found as of        organizations we reviewed use
     the completion of non-time-critical      2008 TVA had an aging generating         health assessments, the process
     activities, we found that five of nine   fleet that was on average 36 years       varies among the organizations.
     activities reviewed did not meet         old. This includes fossil units, which   We also found TVA uses the
     scheduled completion dates. If late      have an average age of 47 years.         condition of assets information for
     completion of activities continues,      Of the ten utilities that participated   planning purposes. In addition, all
     there is an increased risk the overall   in the benchmark, TVA fell into the      of the organizations we reviewed
     project completion date of 2015,         bottom quartile with respect to the      use asset condition information to
     disclosed in the company’s financial     age of its assets. With the age of       identify corrective actions when
     statements, could be delayed.            TVA generating assets, the need to       necessary. However, the RO’s
                                              understand the condition of these        System and Component Health
     We recommended TVA’s Senior              assets and use this information to       Program process does not require
     Vice President, GC, evaluate the         effectively plan is crucial to TVA.      any actions for systems and
     current schedule to determine if         As a result, we initiated a review       components with poor ratings. The
     the identified delays have caused        to determine how TVA assesses            condition of assets information is
     overall schedule slippage. If it         the condition of electric assets and     also used by the organizations to

40    TVA OIG Semiannual Report
develop and prioritize projects for     service area to save energy.           we conducted a review of TVA’s
business planning purposes and          Demand response programs               safety of gas line and gas plant
system planning for future costs.       reduce demand for energy at            operations. The objective of our
In addition, TVA has instituted a       critical high-use/high-price times     review was to determine if TVA has
Capital Productivity Initiative to      through more efficient use of          taken appropriate steps to identify
improve management of capital           current supply resources which         and mitigate risks associated
and operations and maintenance          offsets the need for investment in     with the operation of gas plants
(O&M) projects. As part of the new      peaking resources. In 2000, TVA        and lines. The vast majority of
initiative, projects will be reviewed   began the Green Power Switch           gas-related explosions were gas-
by a Project Review Board and           program, which is described as         line related. According to TVA
condition of assets information         a program where consumers can          personnel, TVA is not responsible
could be a factor for consideration     pay $4 a month, and TVA will add       for gas until it reaches the reducing
in their project reviews.               150 kilowatt hours of electricity      stations on TVA property. This
                                        generated by a renewable               significantly decreases TVA’s risk
We recommended the Vice                 resource.                              of a gas-related incident. We did
President of Generation                                                        identify explosions in Middletown,
Engineering consider revising RO’s      We determined TVA (1) contracted       Connecticut, and Garner, North
System and Component Health             with an independent consultant to      Carolina, which occurred at
Program process to require an           provide evaluation, measurement,       gas plants due to improper
action when a health assessment         and verification services to help      commissioning. In both instances,
has resulted in a poor rating, and      determine the effectiveness of         fuel gas, instead of compressed
Director of Capital Productivity        its energy efficiency and demand       air, was used to clean or purge
and Economic Analysis consider          reduction programs and                 gas pipes of debris, air, or other
requiring condition of assets           (2) achieved its planned energy        substances. TVA has taken steps
information be included as an           efficiency and demand reduction        to mitigate this risk by using
evaluation factor for projects where    for 2011, and only missed its          compressed air instead of gas to
the condition is relevant.              planned demand reduction in 2009       clean or purge gas pipes.
                                        and 2010 by 2 megawatts and
Energy Efficiency and                   16 megawatts, respectively. The        TVA also has completed a draft
Demand Response                         Green Power Switch program             of the Natural Gas Piping System
Energy efficiency and demand            planned a large increase in sales      Management manual. This manual
reduction initiatives are important     (14 percent) over the last three       provides the primary standards
components of TVA’s plan to meet        years through a series of yearly       and methodology required for the
future power needs in its service       goals. The program came close          commissioning, maintenance, and
territory. The objectives of this       to achieving its goals for 2009 and    integrity management of natural
review were to determine how            2010; however, it fell significantly   gas piping systems found at TVA
TVA measures the effectiveness of       short of its goal in 2011. The OIG     Fossil Power Group properties.
its energy efficiency and demand        made no recommendations related        The Natural Gas Piping System
response programs and if program        to this review.                        Management manual also includes
goals were being met.                                                          emergency response information in
                                        Safety of Gas Plant and Gas            the event a natural gas emergency
Energy efficiency programs are          Line Operations                        occurs. The OIG made no
designed to encourage residential       In light of recent gas-related         recommendations related to this
and commercial users in TVA’s           explosions in the utility industry,    review.

                                                                                    TVA OIG Semiannual Report          41
  SUMMARY OF
Representative Investigations
 Summary of
Representative Investigations
This reporting period, our investigations resulted in one individual
convicted in federal court, another indicted on state charges, and three
other persons sentenced federally on various charges, such as workers’
compensation fraud, false statements, and theft. Additionally, one
administrative investigation reported to TVA management is conservatively
estimated to save TVA $1.1 million over the next five years. Our
investigations resulted in restitution, fees, and projected savings exceeding
$5.8 million. We opened 147 investigations and closed 157. Highlights of
our accomplishments follow.




CRIMINAL RESULTS                        Former Employee                         that information to the appropriate
                                        Sentenced on Charges                    local agencies.
Former Local Utility                    Including TVA VISA Misuse
President Convicted                     Constituting Theft                      This former employee and the
As a result of our investigation,                                               following two convicted individuals
                                        During February 2012, a former
a former president of a Middle                                                  carry security restrictions should
                                        TVA Police (TVAP) administrative
Tennessee utility company                                                       they attempt to seek future TVA
                                        employee pled guilty to a two-
pled guilty in federal court on                                                 employment.
                                        count information charging her
May 25, 2012, to four counts of
                                        with (1) bankruptcy fraud and
an indictment charging him with                                                 Former Contractor
                                        (2) using a TVA VISA card to
honest services wire and mail                                                   Employee Prosecuted for
                                        make personal purchases in
fraud. The indictment alleged he                                                Theft and Misuse of TVA
                                        excess of $20,000. The former
personally accepted “gifts and                                                  Gas Card
                                        TVAP employee was sentenced
payments” from two contractors                                                  As a result of our investigation,
                                        August 21, 2012, to four months
(a father and son who owned                                                     in December 2011, the former
                                        of imprisonment, six months of
separate consulting businesses                                                  contractor pled guilty to a one-
                                        home detention, three years
and who remain under indictment)                                                count indictment in federal court
                                        of supervised release, and full
in exchange for their receiving                                                 for his unauthorized use of a TVA-
                                        restitution to TVA totaling $21,465.
contract assignments with the                                                   issued gas card. Our inquiry, which
utility. The utility requested our                                              included reviewing convenience
                                        Our investigation led to the
investigation after terminating the                                             store security tapes, identified
                                        discovery of additional allegedly
president and cooperated fully                                                  the gas-card user as a TVA hydro
                                        fraudulent activity not directly
with our inquiry. The subject                                                   contractor employee. Store videos
                                        related to the subject matter of our
awaits sentencing.                                                              showed the individual pumping
                                        investigation, and we have referred




                                                                                     TVA OIG Semiannual Report        43
     fuel into a large container and into   while actively employed at a        future liability for OWCP payments
     private vehicles. On April 2, 2012,    Chattanooga business and at         which she will no longer receive
     he was sentenced to six months         the home of the business owner.     due to her conviction.
     of home detention and two years        A September 2011 one-count
     of probation, and he was ordered       federal indictment charged her      Contractor Indicted on State
     to reimburse TVA $7,206 for the        with knowingly defrauding the       Felony Charges
     fraudulent charges he incurred.        program by working while claiming   The OIG investigated allegations
                                            she was unemployed. She             a Power Service Shops contractor
     Former TVA Employee                    subsequently pled guilty to the     electrician stole TVA property and
     Sentenced for Workers’                 charge. On May 10, 2012, she        falsified wage and quality control
     Compensation Fraud                     was ordered to pay TVA $1,064       documentation. On August 2,
     Our investigation revealed a           restitution and sentenced to two    2012, a Colbert County, Alabama,
     former fossil plant employee           years of probation and 120 hours    grand jury indicted the individual
     received total disability benefits     of community service. The U.S.      charging the following three felony
     under the Office of Workers’           Department of Labor estimates TVA   counts: (1) Theft of Property in the
     Compensation Programs (OWCP)           avoided more than $300,000 in       First Degree (two welding devices
                                                                                valued in excess of $2,500 were
                                                                                stolen); (2) Theft of Property by
                                                                                Deception in the Second Degree
                                                                                (timesheets garnering the individual
                                                                                $2,400 wages to which she was
                                                                                not entitled were falsified); and
                                                                                (3) Forgery in the Second Degree
                                                                                (fraudulent Supply Chain quality
                                                                                control documents were supplied).
                                                                                Prosecution is pending.

                                                                                CIVIL RESULTS

                                                                                Medical Group Will Pay
                                                                                $4.36 Million to Resolve
                                                                                Federal and State Health-
                                                                                care Fraud Investigation
                                                                                As part of a health-care task
                                                                                force, we investigated an East
                                                                                Tennessee medical group’s billing
                                                                                practices based on a whistleblower
                                                                                (qui tam) complaint. The group
                                                                                owned and operated six dialysis
                                                                                clinics. An investigation revealed
                                                                                that, for at least five years, the
                                                                                group submitted a multitude of
                                                                                fraudulent claims to Medicare
                                                                                and TennCare, as well as to TVA’s


44    TVA OIG Semiannual Report
health care benefits plan, by       returned to TVA for reimbursement    Eastern District of Tennessee,
claiming inappropriately elevated   and penalties—and the State of       and the Tennessee Bureau of
medical procedure codes to          Tennessee, to settle the case. Of    Investigation.
obtain reimbursement exceeding      critical importance, the group
the amount allowed for the item     and its owner also entered into      ADMINISTRATIVE
or service actually rendered        a five-year Integrity Agreement      RESULTS
(upcoding).                         with the U.S. Department of
                                                                         $1.1 Million Projected
                                    Health and Human Services (HHS)
                                                                         Savings to TVA
Under the Civil False Claims Act,   OIG to ensure future compliance
                                                                         Data mining identified an area of
on April 27, 2012, a settlement     with federal health-care benefit
                                                                         concern regarding the trades-and-
was finalized with the medical      program requirements. The task
                                                                         labor benefit of meal payment
group, which agreed to pay          force consisted of representatives
                                                                         during unscheduled overtime.
a total of $4.36 million to the     from TVA OIG, HHS OIG, the FBI,
                                                                         Trades-and-labor personnel
federal government—$7,760 was       the U.S. Attorney’s Office for the
                                                                         working scheduled overtime


                                                                              TVA OIG Semiannual Report      45
                                                                                 the employee resigned in lieu
                                                                                 of termination, and her record is
                                                                                 marked with a security restriction
                                                                                 should she seek reemployment
                                                                                 at TVA. Prosecution for false
                                                                                 statements was declined.

                                                                                 Subsequently, TVA management
                                                                                 asked us to determine how
                                                                                 the employee’s hiring process
                                                                                 was executed. We found
                                                                                 TVA management ignored
                                                                                 recommendations by TVA
                                                                                 Personnel Security to withhold
                                                                                 a hiring decision until a
                                                                                 background investigation was
                                                                                 completed to resolve issues that
                                                                                 were already apparent. Our
                                                                                 final recommendation to TVA
                                                                                 management was to follow
                                                                                 policy already in force regarding
                                                                                 employment suitability to ensure no
     are responsible for providing         recent internal analysis they had     hire is made before TVA’s Personnel
     their own meals during those          performed. The Generation Group       Security Manager can determine
     shifts. However, if the overtime is   decided all plants would have a       if the applicant is suitable for a
     unscheduled TVA provides meal         scheduled overtime policy in place    position of trust.
     payment. Our investigation found      and active by July 20, 2012.
                                                                                 Workers’ Compensation
     that in many instances foreseeable    Our conservative projection of
                                                                                 Overpayment Investigation
     overtime was not scheduled but        savings to TVA, as a result, totals
                                                                                 Results in Humane Care for
     arranged “on the fly” and was, as     $1.1 million over the next five
                                                                                 Elderly Individual
     such, considered unscheduled. In      years.
                                                                                 An elderly Alabama resident
     instances where the unscheduled
                                           Employee Termination and              continued to receive Workers’
     aspect could have been avoided,
                                           Review of Hiring Process              Compensation benefits that
     employees were still being
                                           We investigated an allegation         should have ceased at his wife’s
     reimbursed or provided a stipend
                                           that an executive-level               death. As a result, we determined
     for meals on-shift.
                                           management assistant falsified        he had been overpaid $7,738,
                                           and/or omitted information on         and OWCP agreed. During the
     We reported our findings to
                                           her TVA employment application        course of our investigation, we
     management. The Generation
                                           materials. Evidence revealed she      found overwhelming evidence the
     Group reviewed our analyses of
                                           falsified, misrepresented, and        individual was being financially
     scheduled versus unscheduled
                                           omitted information to obtain         exploited by distant relatives; and,
     overtime at TVA sites and stated
                                           TVA employment. As a result of        although they purportedly tended
     results were consistent with
                                           this phase of our investigation,      to his physical needs, he suffered


46    TVA OIG Semiannual Report
significantly from neglect. The          amounts and whether duty stations          leadership at the next quarterly
investigating agent contacted and        should have been changed to                management meeting.
followed up with the Alabama             reflect the actual workplace of the
Department of Human Resources,           employees.                              VV Expressed a difficulty in
and a guardian ad litem was                                                         changing duty stations for
appointed to advocate for the            In response, management:                   employees who perform
elderly individual’s best interests.                                                temporary work assignments
As a result, his health and mental       VV Determined the first individual         throughout the Valley but is
acuity greatly improved, and the            over claimed his lodging                working with Human Resources
overpayment was rectified. Civil            expenses by $1,900, terminated          to develop a consistent process
and criminal proceedings against            his employment, and counseled           for establishing official duty
two allegedly exploitative relatives        the other two employees on              stations.
are currently pending.                      TVA travel policy.
                                                                                 In addition to the employees
Long-term Travel Issues
                                         VV Reviewed other departmental          noted, we conducted an
Investigated
                                            employees’ expenses during           investigation of their supervisor.
Based on an allegation received
                                            the referenced period, and           As a result of our findings against
from TVA management, we
                                            their reimbursement was              him, including discouraging his
reviewed the expenses of a
                                            also requested at a flat rate        subordinates from cooperating
management-level employee who
                                            under the maximum allowed            with the OIG, he resigned in lieu
was assigned to a site away from
                                            rather than actual expenses.         of termination, and his future TVA
his official duty station for over
                                            (Management decided that             employment has been restricted.
a year. He was placed in travel
                                            because totals did not exceed
status for this extended period.
                                            allowable rates, no further action   Prosecution was declined in
Our investigation revealed the
                                            was taken.)                          the above matters in favor of
individual falsified meal expenses,
                                                                                 administrative remedies available
which continually approached the
                                         VV Requested a TVA ethics               to TVA.
maximum allowed for his location
                                            official speak to department
each day, and over-claimed lodging
expenses. At that time, TVA travel
policy required employees to
report actual expenses incurred
for reimbursement.

During the course of our
investigation, we found two other
management-level employees
in the same organization had
been in travel status for extended
periods, away from their official
duty stations, who similarly falsified
their expenses. We reported
our findings to management,
questioning the reimbursement


                                                                                      TVA OIG Semiannual Report        47
Legislation &
   Regulations
 Legislation & Regulations
Section 4(a) of the Inspector General Act of 1978, as amended, provides
that the Inspector General shall “. . . review existing and proposed
legislation and regulations relating to programs and operations of such
establishment and to make recommendations in the semiannual reports
. . . concerning the impact of such legislation or regulations on the
economy and efficiency in the administration of programs and operations
administered or financed by such establishment or the prevention and
detection of fraud and abuse in such programs and operations.”




During this reporting period,         Congressional Responses to           cyber security. Today more
we have the following                 Cyber Security Risks                 than 40 bills and resolutions
recommendations concerning the        As described in our feature          with provisions related to cyber
impact of current or pending law      article, there are serious threats   security have been introduced
on the economy and efficiency         to our nation’s cyber security.      and are pending, including several
in the administration of TVA          Congress has enacted many            proposing revisions to current laws.
operations and programs.              laws and regulations to improve      Furthermore, the White House is
                                                                           considering issuing an Executive
                                                                           Order on cyber security because of
                                                                           the difficulty Congress is having in
                                                                           agreeing on legislation.

                                                                           Our concerns are that we avoid
                                                                           duplication of efforts, authorities
                                                                           and standards, and that we avoid
                                                                           establishing a checklist mentality
                                                                           to cyber security. We need an
                                                                           approach to cyber security which
                                                                           is flexible and quick to respond.
                                                                           We need information on the
                                                                           latest threats to be centralized
                                                                           and quickly dispersed without
                                                                           bureaucratic delays. We also
                                                                           would encourage a federal center
                                                                           to help detect, monitor and
                                                                           analyze attacks, with a mission not
                                                                           to regulate, but to expand cyber
                                                                           security research and improve
                                                                           government-industry cooperation.


                                                                                TVA OIG Semiannual Report         49
appendices
                                                                                       Appendix 1


INDEX OF REPORTING REQUIREMENTS UNDER THE INSPECTOR GENERAL ACT

 REPORTING          REQUIREMENT                                                                  PAGE
 Section 4(a)(2)    Review of Legislation and Regulations                                           49

 Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                                 27-47

                    Recommendations With Respect to Significant Problems, Abuses,
 Section 5(a)(2)                                                                                   27-47
                    and Deficiencies

                    Recommendations Described in Previous Semiannual Reports in
 Section 5(a)(3)                                                                                 Appendix 4
                    Which Corrective Action Has Not Been Completed

                    Matters Referred to Prosecutive Authorities and the Prosecutions             Appendix 5
 Section 5(a)(4)
                    and Convictions That Have Resulted                                             43-47
 Section 5(a)(5)
                    Summary of Instances Where Information Was Refused                             None
 and 6(b)(2)

 Section 5(a)(6)    Listing of Audit and Evaluation Reports                                      Appendix 2


 Section 5(a)(7)    Summary of Particularly Significant Reports                                    27-47

                    Status of Management Decisions for Audit and Evaluation Reports
 Section 5(a)(8)                                                                                 Appendix 3
                    Containing Questioned Costs

                    Status of Management Decisions for Audit and Evaluation Reports
 Section 5(a)(9)                                                                                 Appendix 3
                    Containing Recommendations That Funds Be Put to Better Use

                    Summary of Audit and Evaluation Reports Issued Prior to the
 Section 5(a)(10)   Beginning of the Reporting Period for Which No Management                      None
                    Decision Has Been Made

 Section 5(a)(11)   Significant Revised Management Decisions                                       None

                    Significant Management Decisions With Which the Inspector General
 Section 5(a)(12)                                                                                  None
                    Disagreed

                    Information Under Federal Financial Management Improvement Act of
 Section 5(a)(13)                                                                                  None
                    1996

                    Appendix of results of any peer review conducted by another Office of the
 Section 5(a)(14)   Inspector General during the reporting period and, if none, a statement of   Appendix 8
                    the date of the last peer review

                    List of outstanding recommendations from any peer review conducted by
 Section 5(a)(15)   another Office of the Inspector General, including a statement describing      None
                    the status of the implementation and why implementation is not complete

                    List of peer reviews conducted of another Office of the Inspector
                    General during the reporting period, including a list of any outstanding
 Section 5(a)(16)                                                                                  None
                    recommendations made from any previous peer review that remain
                    outstanding or have not been implemented




                                                                                      TVA OIG Semiannual Report   51
       Appendix 2

        OIG AUDIT REPORTS • Issued During the Six-Month Period Ended September 30, 2012

          Report Number                                                                      Questioned   Unsupported   Funds Put To
                          Title
          and Date                                                                                Costs         Costs     Better Use

          CONTRACT AUDITS
          2011-14150
                          Westinghouse Material Escalation Billings                           $164,325            $0             $0
          05/07/2012
          2010-13104-01
                          Pressures On, Inc.                                                 $4,145,909    $2,482,444            $0
          06/21/2012
          2012-14559
                          Proposal for Project Controls Support – Company I                         $0            $0    $1,037,000
          08/02/2012
          2011-13899      Trans Ash, Inc. – Ash Management Services at Johnsonville Fossil
                                                                                             $1,666,585      $13,866             $0
          08/03/2012      Plant
          2012-14566
                          Proposal for Project Controls Support – Company II                        $0            $0        $66,675
          08/09/2012
          2012-14611
                          Proposal for Revised Indirect Cost Rates – Company I                      $0            $0    $1,700,000
          08/23/2012
          2012-14614
                          Proposal for Revised Indirect Cost Rates – Company II                     $0            $0    $7,400,000
          09/07/2012
          2010-13347
                          Bechtel Power Corporation                                          $1,449,752      $91,794             $0
          09/10/2012
          2011-14225
                          Hartford Steam Boiler                                               $679,370            $0             $0
          09/26/2012
          CORPORATE GOVERNANCE AND FINANCE AUDITS
          2011-14340-01
                          TVA’s Compliance with IPIA FY 2011                                        $0            $0             $0
          04/04/2012
          2010-13658
                          Distributor Audit of Knoxville Utilities Board                            $0            $0             $0
          05/31/2012
          2010-13657
                          Distributor Audit of Memphis Light, Gas, and Water                 $3,601,693           $0             $0
          06/29/2012
          2011-14244
                          TVA’s Direct Load Control Program                                         $0            $0             $0
          09/28/2012
          2011-14477
                          TVA’s Financial Trading Program                                           $0            $0             $0
          09/28/2012
          OPERATIONAL AUDITS
          2011-13945
                          New Expense Management System Implementation                              $0            $0             $0
          06/29/2012
          2012-14570      Performance of Agreed Upon Procedures for CRS Green-e Energy
                                                                                                    $0            $0             $0
          08/24/2012      Program Reporting Year 2011
          2011-14158
                          Craft Labor Staffing                                                      $0            $0             $0
          09/18/2012
          2011-13781      Lessons Learned During Construction of the Lagoon Creek
                                                                                                    $0            $0             $0
          09/21/2012      Combined-Cycle Combustion Turbine
          INFORMATION TECHNOLOGY AUDITS
          2011-14177      Regional Operations Center and System Operations Center Cyber
                                                                                                    $0            $0             $0
          04/23/2012      Security Audit
          2010-14183
                          Volunteer Substation Cyber Security                                       $0            $0             $0
          05/07/2012
          2012-14422
                          Oracle eBusiness Suite Upgrade Audit                                      $0            $0             $0
          06/07/2012




52   TVA OIG Semiannual Report
                                                                                                       Appendix 2

OIG AUDIT REPORTS • Issued During the Six-Month Period Ended September 30, 2012 (CONTINUED)

 Report Number                                                                          Questioned     Unsupported    Funds Put To
                       Title
 and Date                                                                                    Costs           Costs      Better Use
 2012-14419
                       Controls for Handling TVA Private Information – SHPS                    $0              $0               $0
 08/17/2012
 2012-14429
                       Controls for Handling TVA Private Information – World Travel            $0              $0               $0
 08/30/2012
 2012-14580
                       HP Service Manager Implementation Audit                                 $0              $0               $0
 09/04/2012
 2012-14425
                       TVA Protection of Private Information                                   $0              $0               $0
 09/24/2012

 Total
                                                                                      $11,707,634     $2,588,104     $10,203,675
 Audits (25)

  Note: A summary of, or link to, the full report may be found on the OIG’s Web site at www.oig.tva.gov.




OIG Evaluation REPORTS • Issued During the Six-Month Period Ended September 30, 2012

 Report Number                                                                          Questioned     Unsupported     Funds Put To
                       Title
 and Date                                                                                    Costs           Costs       Better Use
 2011-14061
                       Review of Energy Efficiency and Demand Response                         $0              $0               $0
 05/02/2012
 2011-14109            Review of Non-Time-Critical Kingston Ash Recovery Project
                                                                                               $0              $0               $0
 05/11/2012            Activities
 2011-14057
                       Safety of Gas Line and Gas Plant Operations                             $0              $0               $0
 05/14/2012
 2010-13088            Status Review of the Watts Bar Unit 2 Constructions Project
                                                                                               $0              $0               $0
 05/18/2012            Schedule and Budget
 2009-12883
                       Survey of TVA’s Process for Determining Condition of Assets             $0              $0               $0
 09/20/2012
 2012-14531            Completion of PowerPlant’s Project/Portfolio Management
                                                                                               $0              $0               $0
 09/28/2012            Function

 Total
                                                                                               $0              $0               $0
 EVALUATIONS (6)

  Note: A summary of, or link to, the full report may be found on the OIG’s Web site at www.oig.tva.gov.




                                                                                                     TVA OIG Semiannual Report        53
           Appendix 3

      TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • AUDITS

                                                                                       Number              Questioned          Unsupported
           Audit Reports                                                             of Reports                 Costs                Costs

           A. For which no management decision has been made by
                                                                                                0                     $0                    $0
              the commencement of the period


           B. Which were issued during the reporting period                                     6          $11,707,634             $2,588,104

                                                                                                    1
           Subtotal (A+B)                                                                       6          $11,707,634             $2,588,104

           C. For which a management decision was made during the                                   2
                                                                                                6          $10,803,936             $2,588,104
              reporting period

             1. Dollar value of disallowed costs                                                6            $9,153,313            $2,588,104

             2. Dollar value of costs not disallowed                                            1            $1,650,623                     $0

           D. For which no management decision has been made by the
                                                                                                1              $903,698                     $0
              end of the reporting period

           E. For which no management decision was made within six
                                                                                                0                     $0                    $0
              months of issuance
       1
           The subtotal of reports (A+B) differs from the sum of C and D when the same report(s) contain recommendations on which a 		
           management decision was made and others on which a management decision was not made by the end of the semiannual period.
       2
           The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and 	
           C(2) when the same report(s) contain both recommendations agreed to by management and others not agreed to by management.



      TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • EVALUATIONS

                                                                                       Number              Questioned          Unsupported
           Evaluation Reports                                                        of Reports                 Costs                Costs

           A. For which no management decision has been made by the
                                                                                                0                     $0                    $0
              commencement of the period


           B. Which were issued during the reporting period                                     0                     $0                    $0

           Subtotal (A+B)                                                                       0                     $0                    $0

           C. For which a management decision was made during the
                                                                                                0                     $0                    $0
              reporting period

             1. Dollar value of disallowed costs                                                0                     $0                    $0

             2. Dollar value of costs not disallowed                                            0                     $0                    $0

           D. For which no management decision has been made by the
                                                                                                0                     $0                    $0
              end of the reporting period

           E. For which no management decision was made within six
                                                                                                0                     $0                    $0
              months of issuance



54   TVA OIG Semiannual Report
                                                                                                               Appendix 3

TABLE II • FUNDS TO BE PUT TO BETTER USE • AUDITS

                                                                                                              Number           Funds To Be Put
    Audit Reports                                                                                           of Reports           To Better Use

    A. For which no management decision has been made by the commencement of the period                                1              $859,000

    B. Which were issued during the reporting period                                                                   4           $10,203,675

    Subtotal (A+B)                                                                                                     5           $11,062,675

                                                                                                                           1
    C. For which a management decision was made during the reporting period                                            3            $1,962,675

      1. Dollar value of recommendations agreed to by management                                                       3            $1,234,675

      2. Dollar value of recommendations not agreed to by management                                                   1              $728,000

    D. For which no management decision has been made by the end of the reporting period                               2            $9,100,000

    E. For which no management decision was made within six months of issuance                                         0                    $0

1
    The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2) when 	
    the same report(s) contain both recommendations agreed to by management and others not agreed to by management.




TABLE II • FUNDS TO BE PUT TO BETTER USE • EVALUATIONS

                                                                                                              Number           Funds To Be Put
    Evaluation Reports                                                                                      of Reports           To Better Use

    A. For which no management decision has been made by the commencement of the period                                0                    $0

    B. Which were issued during the reporting period                                                                   0                    $0

    Subtotal (A+B)                                                                                                     0                    $0

    C. For which a management decision was made during the reporting period                                            0                    $0

      1. Dollar value of recommendations agreed to by management                                                       0                    $0

      2. Dollar value of recommendations not agreed to by management                                                   0                    $0

    D. For which no management decision has been made by the end of the reporting period                               0                    $0

    E. For which no management decision was made within six months of issuance                                         0                    $0




                                                                                                           TVA OIG Semiannual Report                55
          Appendix 4

 AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING

 As of the end of the semiannual period, final corrective actions associated with 17 audits and 6 evaluations reported in previous semiannual
 reports were not completed. Presented below for each audit and evaluation are the report number and date and a brief description of
 final actions planned to resolve the open recommendations and the date management expects to complete final action.



     Report Number
                      Report Title and Recommendation(s) for Which Final Action is Not Complete
     and Date


     2007-11216       Review of TVA Actions to Protect Social Security Numbers and Eliminate Their Unnecessary Use
     06/02/2008       TVA agreed to implement protective measures for applications and reports containing social security numbers, such as
                      restricting access and logging downloads. Management expects final action to be completed by May 31, 2013.



                      Hydroelectric Plant Automation – General, Physical, and Security Controls Review
     2008-12127
     09/24/2009       TVA agreed to implement the new access control system at all sites and further restrict access to key components.
                      Management expects final action to be completed by September 30, 2015.


                      Use and Protection of Personally Identifiable Information
     2009-12650
                      TVA agreed to improve the privacy program by defining security officer responsibilities. Management expected final
     05/19/2010       action to be completed by September 30, 2012.



                      Effectiveness of Cyber Security Monitoring Follow-up Review
     2010-13033
     10/12/2012       TVA agreed to perform a risk assessment of TVA’s intrusion detection/prevention system device implementation.
                      Management expects final action to be completed by November 30, 2012.


                      Follow-up Review of TVA’s Role as a Rate Regulator – Use of Electric Revenues for
                      Nonelectric Purposes
                      TVA agreed to (1) determine when distributor reserves become excessive and should be returned to the ratepayers
     2009-12699
                      in the form of rate reductions, and (2) review and ensure all distributors using electric system revenues for nonelectric
     12/09/2010       system purposes have appropriate protections in place. TVA distributor staff will look for electric system use of
                      revenue for nonelectric system purposes when they perform their annual review of distributor financial information. As
                      part of this review, any unapproved use of electric system use of revenues for nonelectric system uses will be evaluated
                      for further action. Management expects final action to be completed by March 31, 2013.


                      Information Technology Organizational Effectiveness
     2010-13366
     04/05/2011       TVA management agreed with the audit findings and has provided detailed plans and target dates to implement the
                      audit recommendations. Management expects to complete final action by August 30, 2013.


                      Review of Physical and Logical Access for Contractors

     2010-13132       TVA agreed to (1) create a cross-reference matrix of TVA roles to assets with the associated qualification/background
                      requirements needed to gain access to that asset and develop a process to restrict contractor access to sensitive data
     06/15/2011
                      and assets until the proper clearances have been obtained and (2) ensure that requests for master keys by Energy
                      Delivery are sent to Physical Security to verify the proper security clearance has been obtained prior to issuing the key.
                      Management expects to complete final action by December 31, 2014.




56    TVA OIG Semiannual Report
                                                                                                        Appendix 4

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


Report Number
                Report Title and Recommendation(s) for Which Final Action is Not Complete
and Date


2011-13820      Audit of Information Technology General Controls – Configuration Management
07/14/2011      TVA agreed to verify all configuration items are tracked in a configuration management tool. Management expects to
                complete final action by January 30, 2013.


                Audit of Information Technology General Controls – Computer Operations
2011-13826      TVA agreed to eliminate redundant backup failure messages in Hewlett Packard OpenView and implement a process
07/18/2011      to address backup failures in a timely manner, and (2) complete disaster recovery testing for critical applications.
                Management expects to complete final action by November 30, 2012.


                Distributor Audit of Volunteer Energy Cooperative
2010-13285      TVA management agreed to work with Volunteer to address identified instances of noncompliance in the areas of use
11/16/2011      of revenues, financial reporting to TVA, and internal controls. TVA management also agreed to address two issues
                related to oversight of distributors. Management expects to complete final action by March 31, 2013.


                Federal Information Security Management Act (FISMA) Evaluation
                TVA management agreed to (1) implement an updated system security authorization process, (2) implement an
                updated continuous monitoring process, (3) appoint key agency FISMA roles and security responsibilities and
                update training for personnel with key roles, (4) update system security authorizations based on revised processes,
                (5) ensure plans of action and milestones are updated timely and monitored for completion, (6) develop a personal
2011-13760      identity verification (PIV) project plan to align with federal guidance for use of PIV, (7) publish security risk information
11/17/2011      and overall security program progress to agency officials, (8) track development of contingency plans and testing
                schedules for authorized systems, (9) develop a policy to authorize contractor information systems, (10) identify
                information needs for contractor systems and the appropriate asset management system, (11) implement agreements
                for external interfaces, (12) implement an IT standard policy and procedure to identify security requirements in capital
                projects, and (13) implement holistic security governance with a chief executive officer-level security policy and agency
                security steering committee. Management expects to complete final action by March 29, 2013.


                Review of Cost Recovery Rates for Engineering Services
2011-14305      TVA management concurred with the $3.1 million in funds for better use findings and stated it will engage the
12/15/2011      contractor in negotiation to obtain rates that more accurately reflect actual costs and recover as much of the
                inflated amounts already paid to the contractor as practicable. Management expects to complete final action by
                December 15, 2012.


                Cumberland Fossil Plant – Cyber Security Assessment
                TVA agreed to (1) evaluate options to remediate weaknesses in the current design of the one-way connection bypass
                and implement solutions; (2) develop a Dataware application standard to evaluate Dataware usage and determine
                Dataware’s service level; (3) develop a logical security standard and evaluate logical security controls; (4) patch
2010-13671      identified systems, implement a new monthly patching schedule and ensure required patches are in place for all IT-
12/15/2011      supported desktops; (5) communicate expectations of human behaviors regarding logical security, physical security,
                adherence to procedures, self-assess identified human performance vulnerabilities, and establish physical security
                standards for cyber assets and develop a Keys and Locks procedure to address procedural weaknesses; and
                (6) perform policy/procedure gap analysis, evaluate evidence and artifact requirements for oversight and effectiveness
                assessment and integrate remediation into a plan of action. Management expects to complete final action by
                January 31, 2013.




                                                                                                   TVA OIG Semiannual Report                    57
          Appendix 4

 AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


     Report Number
                     Report Title and Recommendation(s) for Which Final Action is Not Complete
     and Date


                     Review of TVA Demurrage Costs
                     TVA agreed to review its contracts with Kinder Morgan and consult with the Office of the General Counsel to
     2010-13656
                     determine the feasibility of recovering demurrage charges and develop actions to recover charges, where possible,
     12/20/2011      and evaluate burning a non-blended coal at Allen Fossil Plant (ALF). In addition, ALF plans to evaluate training
                     of operators to reduce or eliminate barge damage and communicate key contract requirements and operating
                     conditions among contract administrators, Yard Operations personnel, and others. Management expects to complete
                     final action by December 20, 2012.


                     Williams Plant Services, LLC – Contract Compliance
     2009-12779
     01/12/2012      TVA Supply Chain agreed to pursue recovery of $950,113 from the contractor. Management expects to complete final
                     action by December 12, 2012.


                     Hartford Steam Boiler
     2011-14155
     02/08/2012      Supply Chain plans to provide final action on pay rate compensation terms after further discussions with the
                     contractor. Management expects to complete final action by October 31, 2012.


                     Distributor Audit of Meriwether Lewis Electric Cooperative
                     TVA management agreed to recommend the TVA Board formally approve a use of revenues policy which expressly
     2010-13659      approves distributor participation in the United States Department of Agriculture Rural Economic Development Loan
     03/22/2012      and Grant Program and use of electric funds for economic development. TVA management also stated the distributor
                     will review the commercial and residential accounts that are misclassified and reclassify the accounts as appropriate.
                     Management expects to complete final action by March 22, 2013.


                     Review of Physical and Environmental Controls for the Chattanooga Data Center
     2005-518I       TVA agreed to replace the Chattanooga office complex telephone system with a system operating on the Internet
     08/31/2005      Protocol to eliminate three specific failure modes which could hamper or eliminate TVA’s communication ability.
                     Implementation of the new communication system has been delayed by management due to what is considered
                     higher priority projects. Management is targeting final action to be completed by December 31, 2012.


                     Distributor Review of Monroe County Electric Power Authority
     2008-12007      TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures, and (2) recommend
     05/13/2009      to the TVA Board that additional financial metrics, including when cash reserves become excessive, be implemented in
                     the rate setting process. Management expects final action to be completed by March 31, 2013.


                     Distributor Review of Lewisburg Electric System
     2008-12040      TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures, and (2) recommend
     05/13/2009      to the TVA Board that additional financial metrics, including when cash reserves become excessive, be implemented in
                     the rate setting process. Management expects final action to be completed by March 31, 2013.



                     Review of TVA Records Retention
     2008-11829
     06/02/2010      TVA agreed to continue current plans to replace the Electronic Data Management System. Management expects final
                     action to be completed by May 29, 2015.




58    TVA OIG Semiannual Report
                                                                                                  Appendix 4

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


Report Number
                Report Title and Recommendation(s) for Which Final Action is Not Complete
and Date


2009-12991      Review of TVA Groundwater Monitoring at Coal Combustion Products Disposal Areas
06/21/2011      TVA agreed to continue with the assessment plan and initiate corrective actions for Cumberland and Gallatin fossil
                plants. Management expects to complete final action by June 21, 2014.


                Review of Nuclear Power Group’s Performance Trends
2010-13233      TVA agreed to (1) drive excellence in standards through the Culture of Excellence Plan, (2) continue efforts to be
12/08/2011      proactive in enhancing the organization by initiating improvements in human performance, and (3) build relationships
                and trust by enhancing workforce engagement through the Culture of Excellence Plan. Management expects to
                complete final action by October 30, 2012.




 Cumberland Fossil Plant




                                                                                               TVA OIG Semiannual Report               59
       Appendix 5
                                                                                             1
      INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS


       Referrals
       	           Subjects Referred to U.S. Attorneys                                                 12

       	           Subjects Referred to State/Local Authorities                                         7

       Results
       	           Subject Indicted                                                                     1

       	           Subjects Convicted                                                                   1

       	           Pretrial Diversion                                                                   0

       	           Referrals Declined                                                                  23

       1
           These numbers include task force activities and joint investigations with other agencies.




        Fort Loudoun Dam




60   TVA OIG Semiannual Report
                                                                                                                   Appendix 6

    HIGHLIGHTS – STATISTICS
                                                                       SEPT 30,        MAR 31,         SEPT 30,     MAR 31,       SEPT 30,
                                                                          2012           2012             2011        2011           2010
     AUDITS
     AUDIT STATISTICS
     Carried Forward                                                         35              34             46          40             60
     Started                                                                 28              23             16          29             28
     Canceled                                                                (6)             (2)            (2)         (3)            (7)
     Completed                                                              (25)            (20)           (26)        (20)           (41)
     In Progress at End of Reporting Period                                  32              35             34          46             40


     AUDIT RESULTS (Thousands)
     Questioned Costs                                                   $11,708          $5,110         $1,327       $4,846        $2,713
     Disallowed by TVA                                                   $9,153          $5,691           $655       $1,303        $1,879
     Recovered by TVA                                                    $4,168 1        $1,143 2         $326        $763         $1,965
                                                                                                                                             3




     Funds To Be Put To Better Use                                      $10,204          $6,702         $4,945      $24,963       $13,696
     Agreed to by TVA                                                    $1,235          $9,558        $20,005       $7,450          $149
                                                                                                   4                          5
     Realized by TVA                                                     $1,235          $2,441         $1,162      $12,750        $2,091


     OTHER AUDIT-RELATED PROJECTS
     Completed                                                               10               9             19          13             27
     Cost Savings Identified/Realized (Thousands)                            $0              $0             $0          $0             $0


     EVALUATIONS
     Completed                                                                6               1              8           3              9
     Cost Savings Identified/Realized (Thousands)                            $0              $0             $0          $0             $0


     INVESTIGATIONS6
     INVESTIGATION CASELOAD
     Opened                                                                 148             178            190         190            199
     Closed                                                                 157             202            228         161            221
     In Progress at End of Reporting Period                                 128             146            163         199            167


     INVESTIGATIVE RESULTS (Thousands)
     Recoveries                                                         $4,416.4          $17.5             $8       $2,144         $36.2
     Savings                                                             1,454.7              0              0        2,515         4,028
     Fines/Penalties                                                         0.3            1.7              1         453              87
     Other Monetary Loss                                                  $83.4        $496,500         $9,693 8


     MANAGEMENT ACTIONS
     Disciplinary Actions Taken (No. of Subjects)                            11              19             23           7             14

     Counseling/Management Techniques Employed (No. of Cases)                20              24             18          24             31
     Debarment                                                                0               2              0            19


     PROSECUTIVE ACTIVITIES (No. of Subjects)
     Referred to U.S. Attorneys                                              12              14             22          22             51
     Referred to State/Local Authorities                        	             7               1              3           1              2
     Indicted                                                                 1               5              6           1              7
     Convicted                                                                1               4              5           1              8
     Pretrial Diversion                                                       0               1              1           0              1


	    1
          Includes $109,054 recovered in excess of amounts decided by management.
	    2
          Includes $198,352 recovered in excess of amounts decided by management.
	    3
          Adjusted to correct amount reported in prior semiannual reports.
	    4
         Includes $18,474 savings realized in excess of amounts decided by management.
	    5
         Includes $304,036 savings realized in excess of amounts decided by management.
	    6
         These numbers include task force activities and joint investigations with other agencies.
	    7
         Adjusted to correct amount reported in prior semiannual reports.
	    8
         Category added in semiannual period ended September 30, 2011.
	    9
         Category added in semiannual period ended March 31, 2011.

                                                                                                             TVA OIG Semiannual Report           61
                                                                                                      Kingston Fossil Plant




        Appendix 7


     Government Contractor Audit Findings

     The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General
     appointed under the Inspector General Act of 1978 to submit an appendix on final, completed contract audit
     reports issued to the contracting activity that contain significant audit findings—unsupported, questioned, or
     disallowed costs in an amount in excess of $10 million, or other significant findings—as part of the Semiannual
     Report to Congress. During this reporting period, OIG issued no contract review reports under this requirement.




62    TVA OIG Semiannual Report
                                                                                      Appendix 8

   Peer Reviews of the TVA
   OIG

   Audits Peer Review
   IG audit organizations are required to undergo           Accordingly, TVA OIG received a rating of pass. The
   an external peer review of their system of quality       peer review report is posted on our Web site at
   control at least once every three years, based on        http://oig.tva.gov/peer-review.html.
   requirements in the Government Auditing Standards
   (Yellow Book). Federal audit organizations can           Investigations Peer Review
   receive a rating of pass, pass with deficiencies,        Investigative operations undergo an external peer
   or fail. TVA OIG underwent its most recent peer          review, Quality Assessment Review (QAR), at least
   review of its audit organization for the period ended    once every three years. During the semiannual period
   September 30, 2010. The review was performed             ended September 30, 2010, the Office of Personnel
   by an ad hoc team appointed by the Council of            Management (OPM) OIG conducted a QAR of the
   Inspectors General on Integrity and Efficiency and       TVA OIG Investigative Operations. The OPM OIG
   led by the U.S. Department of Education (Education)      found the “. . . system of internal safeguards and
   Office of the Inspector General (OIG). Education OIG     management procedures for the investigative function
   issued the report, dated March 21, 2011, in which        of the TVA OIG in effect for the year ending August 1,
   it concluded that the TVA OIG audit organization’s       2010, is in compliance with the Quality Standards for
   system of quality control for the fiscal year ended      Investigations and the Attorney General guidelines.
   September 30, 2010, was suitably designed and            These safeguards and procedures provide reasonable
   complied with to provide the OIG with reasonable         assurance of conforming with professional standards
   assurance of performing and reporting in conformity      in the conduct of investigations.” The QAR report
   with applicable professional auditing standards in all   can be found on our Web site at http://oig.tva.gov/
   material respects.                                       peer-review.html.




Raccoon Mountain
                                                                                   TVA OIG Semiannual Report         63
                                    Glossary
                                 Abbreviations & Acronyms




64   TVA OIG Semiannual Report
                                                                                          Glossary


Disallowed Cost – A questioned cost that management, in a management decision, has sustained or
agreed should not be charged to the agency.

Final Action – Completion of all management actions, as described in a management decision, with respect
to audit findings and recommendations. When management concludes no action is necessary, final action occurs
when a management decision is made.

Funds Put To Better Use – Funds which the OIG has disclosed in an audit report that could be used more
efficiently by reducing outlays, deobligating program or operational funds, avoiding unnecessary expenditures, or
taking other efficiency measures.

Improper Payment – Any payment that should not have been made or was made in an incorrect amount
under statutory, contractual, administrative, or other legally applicable requirements, as defined in the Improper
Payment Information Act.

Management Decision – Evaluation by management of the audit findings and recommendations and the
issuance of a final decision by management concerning its response to such findings and recommendations.

Questioned Cost – A cost the IG questions because (1) of an alleged violation of a law, regulation, contract,
cooperative agreement, or other document governing the expenditure of funds; (2) such cost is not supported
by adequate documentation; or (3) the expenditure of funds for the intended purposes was unnecessary or
unreasonable.

Unsupported Costs – A cost that is questioned because of the lack of adequate documentation at the time
of the audit.




                                                                                       TVA OIG Semiannual Report     65
      Abbreviations & Acronyms

           The following are acronyms and abbreviations widely used in this report.

           AIG............................................................................................................... Assistant Inspector General
           CEO..................................................................................................................... Chief Executive Officer
           CRS........................................................................................................... Center for Resource Solutions
           DHS........................................................................................... U.S. Department of Homeland Security
           DLC.............................................................................................................Direct Load Control Program
           Education.................................................................................................U.S. Department of Education
           FCA....................................................................................................................... Fuel Cost Adjustment
           FISMA.............................................................................Federal Information Security Management Act
           FRA.......................................................................................................................Fraud Risk Assessment
           FS	................................................................................................................................ Financial Services
           FTP................................................................................................................. Financial Trading Program
           FY	............................................................................................................................................Fiscal Year
           GC.................................................................................................................... Generation Construction
           HHS.............................................................................................................. Health and Human Services
           IG	................................................................................................................................Inspector General
           IRP....................................................................................................................Integrated Resource Plan
           IT	 ...................................................................................................................... Information Technology
           JCC.............................................................................................................John Sevier Combined Cycle
           LCC.........................................................................................................Lagoon Creek Combined Cycle
           NCCC..............................................................National Center for Cybersecurity and Communications
           OIG......................................................................................................... Office of the Inspector General
           O&M..............................................................................................................Operations & Maintenance
           OMB.................................................................................................Office of Management and Budget
           OPM.................................................................................................... Office of Personnel Management
           OWCP................................................................................ Office of Workers’ Compensation Programs
           PHI............................................................................................................... Personal Health Information
           PII	..................................................................................................... Personally Identifiable Information
           PMMA......................................................................Project Maintenance and Modification Agreement
           PPM......................................................................................................... Project/Portfolio Management
           QAR.............................................................................................................. Quality Assessment Review
           RO................................................................................................................................. River Operations
           SBU..................................................................................................................... Strategic Business Units
           TVA................................................................................................................ Tennessee Valley Authority
           TVA Board........................................................................................................... TVA Board of Directors
           TVAP........................................................................................................................................ TVA Police
           VaR....................................................................................................................................... Value at Risk
           Watts Bar............................................................................................................ Watts Bar Nuclear Plant


66   TVA OIG Semiannual Report
Office of the Inspector General
400 West Summit Hill Drive
Knoxville, Tennessee 37902

The OIG is an independent organization
charged with conducting audits, evaluations,
                                                          BE A HERO
and investigations relating to TVA programs                                       REPORT FRAUD
and operations, while keeping the TVA Board
and Congress fully and currently informed
about problems and deficiencies relating to the
administration of such programs and operations.

The OIG focuses on (1) making TVA’s programs
and operations more effective and efficient;
(2) preventing, identifying, and eliminating waste,
fraud, and abuse and violations of laws, rules,
or regulations; and (3) promoting integrity in
financial reporting.

If you would like to report to the OIG any
concerns about fraud, waste, or abuse involving
TVA programs or violations of TVA’s Code
of Conduct, you should contact the OIG
EmPowerline system. The EmPowerline is
administered by a third-party contractor and can
be reached 24 hours a day, seven days a week,          Contact the OIG EmPowerline® at 855-882-8585
                                                                          or online at www.OIGempowerline.com
either by a toll-free phone call (1-855-882-8585)
or over the Web (www.oigempowerline.com). You                                  YOU CAN MAKE A DIFFERENCE
may report your concerns anonymously or you            If you see or suspect wrongdoing, say something. TVA may be able to recover money and you could receive a cash reward from the
                                                      TVA Office of the Inspector General. Visit our EmPowerline® Web site at www.oigempowerline.com or call toll-free at 855-882-8585.
may request confidentiality.




   Leadership
               OIG


             PHILOSOPHY


   The TVA OIG strives to be a high performing organization made up of dedicated
   individuals who are empowered, motivated, competent, and committed to producing
   high quality work that improves TVA and life in the Valley.

   Each of us has important leadership, management, team, and technical roles. We value
   integrity, people, open communication, expansion of knowledge and skills, creative
   problem solving and collaborative decision making.




                                                                                                     TVA OIG Semiannual Report                                                            67
                      NAVIGATING RISK
                                 A FOCUS ON CYBER SECURITY




                                       Office of the Inspector General
                                       Tennessee Valley Authority
                                       Semiannual Report
                                       April 1, 2012 - September 30, 2012

68   TVA OIG Semiannual Report
